Semiannual Report to the Congress
Office of Inspector General
U.S. Department of Labor




                       April 1, 2007-September 30, 2007
                    			                      Volume 58
                          A Message from the Inspector General

I am pleased to submit this Semiannual Report to Congress, which highlights the most significant activities and
accomplishments of the Department of Labor (DOL), Office of Inspector General (OIG), for the six-month
period ending September 30, 2007. During this reporting period, our investigative work led to 281 indictments,
197 convictions, and $363.3 million in monetary accomplishments. In addition, we issued 55 audit and other
reports and questioned $22 million in costs and identified several millions in other monetary impact from
unemployment compensation overpayments identified through Hurricane Katrina oversight audits.

OIG audits made significant recommendations to address vulnerabilities in worker safety and health. For
example, our audit of MSHA’s Accountability program, which is the internal peer review program to ensure that
mine inspection responsibilities are performed effectively, raised major concerns about the program’s
effectiveness. We found that some of the peer reviews did not include site visits to mines and only looked at
paper records on inspections conducted. In addition, we found that District Managers were allowed to select
work to be reviewed in their own districts, creating a conflict of interest. Our audit of the resolution of workplace
hazards identified by the OSHA Consultation Program in three states found that program officials seldom
ensured that interim protection was in place before granting employers’ requests for extensions to correct
serious hazards, and employers who did not complete corrective actions in a timely manner were seldom
referred for enforcement action.

Our investigations continue to combat labor racketeering involving the monies in union-sponsored benefit
plans. An OIG investigation into the Genovese crime family’s control of the drywall industry in and around New
York City resulted in a contractor being sentenced to 33 months’ imprisonment and ordered to pay more than
$2 million in restitution.

Another labor racketeering investigation resulted in the sentencing of the former owner of a home care services
company. This individual was sentenced to 46 months’ imprisonment for embezzlement from the company’s
medical and pension plans. In addition, he was ordered to pay criminal restitution in excess of $3 million.

The OIG also participated in a multi-agency task force investigation of Purdue Frederick that resulted in a
combined total of $634 million in restitution, forfeiture, fines, a civil settlement, and monitoring costs for
fraudulently marketing a prescription pain medication, OxyContin. Our investigation found that DOL was billed
in excess of $42 million for OxyContin that was prescribed to Federal beneficiaries receiving medical care.

The OIG continued to provide oversight of the DOL’s response to Hurricane Katrina. We issued separate
management letters regarding two states’ controls to ensure individuals who received Hurricane-related
disaster unemployment assistance (DUA) benefits were eligible. We also issued management letters on a
state’s controls over its new debit card benefit payment method, and its use of the National Directory of New
Hires to timely identify claimants who had obtained employment and may therefore have been ineligible for
continued benefits. Our audits of DUA eligibility and use of the National Directory of New Hires identified
potential benefit overpayments of $87.2 million and $51.2 million, respectively.

The OIG remains committed to promoting the economy, integrity, effectiveness, and efficiency of DOL. I would
like to express my sincere gratitude to a professional and dedicated OIG staff for their significant achievements
during this reporting period.




Gordon S. Heddell
Inspector General
                                                     Table of Contents

Selected Statistics
Significant Concerns .....................................................................................................................1
Hurricane Katrina Response.........................................................................................................5


Labor Racketeering

Internal Union Investigations.......................................................................................................11
Benefit Plan Investigations..........................................................................................................12
Labor-Management Investigations..............................................................................................14


Worker Safety, Health, and Workplace Rights

Mine Safety and Health Administration.......................................................................................16
Occupational Safety and Health Administration..........................................................................18


Employment and Training Programs

Job Corps....................................................................................................................................22
Workforce Investment Act...........................................................................................................24
Foreign Labor Certification..........................................................................................................27


Worker Benefits Programs

Unemployment Insurance Program ............................................................................................30
Office of Workers’ Compensation Programs...............................................................................32


Departmental Management

Information Technology ..............................................................................................................36
Competitive Sourcing Study........................................................................................................38
Earmarks.....................................................................................................................................39


Legislative Recommendations ....................................................................................................42
Appendix .....................................................................................................................................46
                                                    Selected Statistics


Investigative recoveries, cost-efficiencies, restitutions,
fines and penalties, forfeitures, and civil monetary action 1 ................................ $363.3 million

Investigative cases opened................................................................................................. 191

Investigative cases closed .................................................................................................. 227

Investigative cases referred for prosecution ....................................................................... 148

Investigative cases referred for administrative/civil action .................................................... 94

Indictments.......................................................................................................................... 281

Convictions ......................................................................................................................... 198

Debarments .......................................................................................................................... 20




Audit and other reports issued .............................................................................................. 55

Total questioned costs .......................................................................................... $22.4 million

Other Monetary Impact 2 ...................................................................................... $139.4 million

Outstanding questioned costs resolved during this period ................................... $90.8 million
   Allowed 3 .......................................................................................................... $57.5 million
   Disallowed 4 ..................................................................................................... $33.3 million




Note: The OIG conducts criminal investigations of individuals that can lead to prosecutions based on criminal
complaints, warrants, informations, indictments, or pre-trial diversion agreements. Successful prosecutions may carry
sentences such as fines, restitutions, forfeitures, or other monetary penalties. The OIG’s financial accomplishments,
which include administrative and civil actions, are further detailed and defined in the Appendix of this report.




1
  Includes $282 million from the investigative accomplishments that resulted from the Purdue Frederick case.
2
  Captures the dollar value of recommendations that do not meet the Inspector General Act definition of “Questioned
Costs” and “Funds Put to Better Use”. The $139.4 million in Other Monetary Impact includes items that were cited in
more than one report, because there were multiple problems associated with them.
3
  Allowed means a questioned cost that the DOL has not sustained.
4
  Disallowed means a questioned cost that the DOL has sustained or has agreed should not be charged to the
government.
Significant
 Concerns
                                         Significant Concerns

    The OIG provides information and assistance to the Department and Congress in
    achieving efficient and effective management of DOL programs. As part of our effort to
    focus attention on mission-critical management problems and their resolution, the
    OIG has identified the following areas that we consider vulnerable to mismanagement,
    fraud, waste, or abuse.



    Worker Safety and Health                             problems. We also found that the District
                                                         managers in the District being reviewed were
    Ensuring the safety and health of our nation’s       allowed to select the work to be reviewed. This
    workers is central to the Department’s mission,      selection process created an inherent conflict
    and oversight of DOL programs to meet this           of interest and could have compromised the
    mission continues to be a top priority for the       results of the reviews. The OIG recommended
    OIG. In recent years, OIG audits and                 that MSHA prohibit District Managers from
    evaluations of the Mine Safety and Health            selecting activities for review in their districts. It
    Administration (MSHA) have disclosed the             is essential for MSHA to have an effective,
    need to strengthen the coal mine complaint           objective peer review process to provide
    process, improve controls over reporting of          assurance that mine inspections are
    performance      data,     reassign    MSHA’s        conducted properly.
    procurement authority, and revise the asbestos
    Permissible Exposure Limit. Likewise, our            Similarly, our audit of OSHA’s Consultation
    reports on the Occupational Safety and Health        Program, which was designed to assist
    Administration (OSHA) have addressed the             employers in voluntarily identifying and
    agency’s investigation of immigrant fatalities       correcting workplace hazards without OSHA
    and recommended improvements to its                  taking immediate enforcement action, raised
    compliance assistance programs.                      significant concerns about worker safety during
                                                         the resolution of serious safety hazards. We
    The OIG has significant concerns about the           found that consultation program officials rarely
    effectiveness of MSHA’s coal mine inspection         ensured that interim safety protections were in
    process. Our audit of MSHA’s Accountability          place before granting employers’ requests for
    Program, which is the internal peer review           extensions to correct serious hazards. Further,
    program established to provide assurance that        program officials rarely referred employers for
    Office of Coal Mine Safety and Health                enforcement action after the employers failed
    oversight responsibilities are performed             to take timely corrective measures. It is critical
    effectively, raised major concerns about the         for OSHA to ensure worker safety while
    Accountability Program. We found that the            employers are allowed additional time to
    program is not working well and needs to be          correct serious hazards.
    stronger to ensure that peer reviews of mine
    inspection activities are effective and impartial.   The OIG remains concerned about the
                                                         Department’s execution of its programs to help
    Specifically, some peer reviews did not include      ensure that American workers are not exposed
    site visits to mines and only looked at paper        to unsafe conditions. We will continue to
    records of mine inspections conducted. A             exercise stringent oversight of these programs
    review based solely on records increases the         and to work with the Department to improve
    risk of errors or misrepresentations being           their effectiveness.
    undetected. Without a mine visit, review teams
    are also less likely to discover performance


2                                                                   Semiannual Report to the Congress
                                                                         April 1 – September 30, 2007
                                        Significant Concerns

   Procurement                                          Job Corps
   The Department contracts for many goods and          The Job Corps program is another area of
   services to assist in carrying out its mission. In   continuing concern. Past OIG audits have
   FY 2006, DOL’s acquisition authority exceeded        noted weaknesses in the Job Corps program
   $1.7 billion and included nearly 9,000               relating to the management of Job Corps
   acquisition actions. The OIG continues to have       Centers,      performance monitoring    and
   concerns about inadequate separation of              reporting, student safety and health, and
   procurement and programmatic responsibilities        assessment of incoming students for cognitive
   within the Department. For several years we          disabilities.
   have recommended that the Department
   separate       program      and      procurement     During this semiannual reporting period, we
   responsibilities to help ensure procurement          completed performance audits of three Job
   integrity. Our recommendation followed a             Corps Centers to determine if their reported
   number of instances where the OIG had                financial and performance data were accurate
   identified preferential treatment in awards and      and whether internal controls and operational
   concerns that certain procurement actions            procedures were in compliance with Job Corps
   were not in the best interest of the                 requirements. We found problems in these
   government.                                          areas at all three Centers. Most notably, our
                                                        audits identified problems at two Centers
   The Department has taken several positive            related to the accurate reporting of student
   actions to address this issue, and the               attendance, which is a persistent problem the
   Secretary issued an Order in January 2007            OIG has previously identified.
   that formally established the position of Chief
   Acquisition Officer (CAO). The Order                 At the third Center, we found that the Center
   specifically states that the CAO will have           operator did not always comply with Job Corps
   acquisition management as his or her primary         requirements for reporting on the Center’s
   duty. The OIG encourages the Department to           financial operations. It is critical for Job Corps
   move expeditiously to implement this order to        to have reliable, accurate financial and
   safeguard the integrity and effectiveness of the     performance data to ensure that students’
   procurement function.                                training and educational needs are being met
                                                        and that funds are being used appropriately.
   Our audit of an ETA contract, conducted in
   response to a complaint about improprieties in
   a contract award, raised concerns of
   preferential treatment in how work was
   directed to a specific subcontractor. We found
   that the ETA contracting officer violated sound
   procurement practices by inappropriately
   directing the use of a specific subcontractor on
   the contract. We also found that ETA did not
   adequately monitor the contract to assure that
   at least half of the work effort was performed
   by contractor – as opposed to subcontractor –
   personnel. In addition, our review of the
   procurement action found that ETA had also
   awarded contract modifications that caused
   the contract value to exceed $3 million in
   violation of Federal regulations.




Semiannual Report to the Congress                                                                      3
April 1 – September 30, 2007
                                        Significant Concerns

    Information Technology Security                     for the OIG, and these plans and their service
                                                        providers continue to be a strong investigative
    The security of the Department’s information        focus. OIG labor racketeering investigations
    technology (IT) systems and data is vital, as       have found that plan assets remain vulnerable
    these systems produce the nation’s key              to corrupt plan officials and organized crime
    economic indicators, pay billions in benefits,      influence.
    and are key to the effective delivery of a
    myriad of services. DOL’s ability to keep up        For example, our investigations during this
    with new threats and IT developments, to            semiannual reporting period led to several
    provide assurances that IT systems will             significant     convictions,      guilty    pleas,
    function reliably, and to safeguard information     sentencings, and criminal restitution orders.
    assets, is a continuing concern.                    For example, the medical director and vice
                                                        president for marketing at a medical company,
    Our audit of DOL’s compliance with the              pled guilty for their roles in a $5 million health
    Federal Information Security Management Act         care fraud scheme generated from the
    (FISMA) found that the Department’s security        submission of fraudulent medical claims to
    controls are not in full compliance with FISMA.     more than 25 different Union Health and
    Therefore, the OIG is concerned about the risk      Welfare Funds. In another case, as part of his
    to the confidentiality and integrity of the data    guilty plea, a contractor agreed to pay more
    contained in DOL’s information technology           than $1 million to the carpenters union after he
    systems.                                            defrauded the union’s benefit funds. These
                                                        cases and other significant investigative results
    Specifically, our testing of Department-wide        are detailed in our report. The OIG is
    security controls covering ten information          committed to pursuing those who seek to
    systems across eight component agencies             fraudulently obtain benefits intended for
    revealed two significant deficiencies related to    American workers.
    Department-wide access controls and one
    agency’s security program for a major               Foreign Labor Certification
    information     system.    These      significant
    deficiencies were caused by the Department’s        We continue to be concerned about the high
    lack of both an effective monitoring program        incidence of fraud against the Department’s
    and sufficient documentation of procedures for      Foreign Labor Certification programs as
    implementing security controls required under       documented through our investigations. During
    FISMA. Our work highlights the need for the         this reporting period, our investigations which
    Department to maintain a sustained effort to        involved immigration attorneys, labor brokers,
    protect its information system assets from          and applicants, led to significant indictments
    being compromised.                                  and convictions. In addition, we continue to
                                                        investigate visa fraud and fraudulent
    Security of Employee Benefit                        applications filed with DOL on behalf of
    Plan Assets                                         fictitious companies or applications using
                                                        names of legitimate companies without their
    The OIG is responsible for combating                knowledge. The OIG is committed to working
    corruption involving the monies in union-           with other law enforcement agencies to
    sponsored benefit plans. Protecting the             safeguard the integrity of DOL’s foreign labor
    integrity of worker’s health, retirement, and       certification programs in support of the
    welfare benefit plans is a continuing concern       government’s crackdown on immigration-
                                                        related fraud.




4                                                                  Semiannual Report to the Congress
                                                                        April 1 – September 30, 2007
Hurricane
  Katrina
                                        Hurricane Katrina

    In response to Hurricane Katrina, the OIG initiated a two-phased approach to the
    unprecedented workload brought on by this natural disaster. Phase I focuses on
    addressing possible cases of fraudulent claims for Unemployment Insurance (UI)
    and Disaster Unemployment Assistance (DUA) benefits. Phase II concentrates on
    labor racketeering schemes in reconstruction and debris removal.



    Eligibility for Expedited Benefit Payments Not Always Substantiated
    An unprecedented number of individuals were eligible for and applied to receive benefits from the
    DUA program and from the state-funded and other Federally funded unemployment
    compensation programs following the 2005 hurricanes. The Office of Management and Budget
    issued an October 13, 2005, memorandum that directed Federal agencies to temporarily waive,
    as allowable, traditional enrollment criteria that would slow the delivery of needed assistance
    payments under these programs. The affected states, in accordance with guidance from the
    Employment and Training Administration (ETA), suspended basic eligibility review controls to
    expedite handling the massive number of claims. Affected states were required to implement
    postpayment controls to ensure that benefits went only to individuals who qualified for them.

    We issued two management letters regarding Louisiana and Mississippi’s controls to ensure that
    individuals who received hurricane-related DUA benefits were eligible. We also issued
    management letters on the Louisiana Department of Labor’s (LDOL’s) controls over its new debit
    card payment method, and its use of the National Directory of New Hires (NDNH) to timely
    identify claimants who may have returned to work and, therefore, been ineligible for continued
    benefits. Following is a summary of our findings:

    Louisiana’s Suspension of Controls May Have Resulted in the Payment of Over $60 Million
    to Claimants Whose Eligibility Was Unsubstantiated – Our statistical sample of claimants
    found that files for 60, or 41 percent, of the 147 claims reviewed did not contain any documented
    proof of employment, nor were any wages reported, to support claimants’ entitlement to DUA.
    Louisiana paid these 60 claimants $111,132 in DUA. Based on our statistical sample, we project
    that Louisiana paid at least $62.1 million in DUA payments for claims with no documentation.
    Further, 10 of the 147 claims, with DUA costs of $38,780, contained documentation that lacked
    adequate proof that the individuals were entitled to DUA benefits. (Report No. 06-07-005-03-315)
    LDOL Paid $51 Million in Hurricane-Related Unemployment Benefits on Questionable
    Claims – Through computer-matching with the NDNH we identified $51,180,655 in
    unemployment benefits that were paid to 35,623 claimants after they reportedly obtained
    employment. However, results from the matching were not timely and effectively utilized to initiate
    investigations to determine claimants’ eligibility for continued benefits: $15,596,394 was paid to
    claimants for weeks of unemployment during the period from August 29, 2005, through November
    19, 2005, a period LDOL designated as “Autopay”; and $35,584,261 was paid to claimants who
    reportedly obtained employment after the Autopay period ended. Further, as of October 10, 2006,
    LDOL had identified and coded in its claims system $108,741,716 in overpaid hurricane-related
    unemployment benefits that it intended to recover from claimants. However, LDOL indicated that
    it has been unable to notify claimants of their obligation to repay these benefits due to limited
    resources. (Report No. 06-07-003-03-315)




6                                                                     Semiannual Report to the Congress
                                                                           April 1 – September 30, 2007
                                        Hurricane Katrina

   Insufficient Controls Over Debit Cards Created Opportunities for Fraud – We found that
   LDOL and its contracted service organizations used procedures to administer debit cards that
   created opportunities for ineligible persons to gain access to benefits to which they were not
   entitled. We identified inadequate controls over the security of claimant data and returned debit
   cards. We determined that LDOL paid, and has not retrieved, approximately $1.2 million in
   hurricane-related benefits on 1,570 debit card accounts that have never been activated, and has
   also drawn down from the Hurricanes Katrina and Rita DUA grants $2.7 million more than what it
   had evidence to support was paid by its claims system. (Report No. 06-07-002-03-315)
   Mississippi’s Suspension of Controls Resulted in the Payment of at Least $25 million to
   Claimants Whose Eligibility Was Unsubstantiated – Our statistical sample of claimants found:
           – Files for 85, or 23 percent, of the 364 claimants reviewed did not contain any
           documentation, nor were any wages reported, to support the claimants’ entitlement to
           DUA. The Mississippi Department of Employment Services (MDES) paid these 85
           claimants $159,782 in DUA. Based on our statistical sample, we project that Mississippi
           paid over $3 million in DUA payments on claims having no proof-of-employment (POE)
           documentation.

           – Files of 176, or 48 percent, of the 364 claimants reviewed contained documentation
           that did not provide adequate proof that the individuals were entitled to DUA benefits.
           MDES paid these 176 claimants $702,408 in DUA. Based on our statistical sample, we
           project that MDES paid over $20 million in DUA payments on claims having inadequate
           POE documentation.

           – MDES paid 159 claimants $301,387 more in DUA than it would have under State law
           by using the maximum weekly benefit amount instead of 2004 wages or net income to
           calculate benefits. The Governor of Mississippi had issued an Executive Order to pay all
           DUA claims at the $210 maximum weekly benefit amount. Based on our statistical
           sample, we project that MDES paid at least $7.7 million more in DUA as a result of
           paying at the maximum weekly benefit amount. (Report No. 06-07-004-03-315)

   We recommended that ETA monitor the collection efforts of Louisiana and Mississippi and
   provide guidance to them on the advisability of paying DUA at the maximum weekly benefit
   amount. We made four recommendations related to our control findings in Louisiana’s debit card
   program, and four recommendations to improve the utilization of the NDNH as a tool to identify
   overpayments to individuals who continued to collect unemployment benefits even though they
   had returned to work. ETA generally agreed with our recommendations, stating that LDOL is
   working with the State Attorney General to recover benefits paid to individuals who did not submit
   POE. Further, LDOL has negotiated a new agreement with its contractor to safeguard debit cards
   and protect confidential information belonging to claimants.

   Audits of National Emergency Grants in Three States
   We conducted performance audits of the National Emergency Grants (NEGs) awarded to Texas
   ($75 million), Louisiana ($62.1 million), and Mississippi ($50 million) to assist individuals affected
   by the 2005 hurricanes. We found that although these states were operating under very difficult
   circumstances following the hurricanes, there were only a few areas of concern, as summarized
   below:

   In Texas, we found that 48 percent of tested individuals were reported as participants but were
   not enrolled in the program; 37 percent of participants had or should have exited from the



Semiannual Report to the Congress                                                                           7
April 1 – September 30, 2007
                                         Hurricane Katrina

    program but were not reported as having exited, or continued to be enrolled past their required
    exit date; and 63 percent of tested participants had insufficient documentation.
     In Louisiana, at one Local Workforce Investment Area we noted exceptions involving employee
    time distribution, discrepancies in participants’ hours worked, expenditure reporting on the cash
    basis instead of accrual basis of accounting, and a lack of specific controls to review and verify
    subcontractor invoices prior to paying them.
    In Mississippi, we did not identify any new areas of concern. Our September 2006 management
    letter to ETA reported on issues regarding questionable eligibility of college students participating
    in Mississippi’s NEG training program.

    We made several recommendations to ETA to ensure that Louisiana and Texas comply with NEG
    administrative and programmatic requirements. LDOL agreed with our findings and
    recommendations. Texas disagreed with our representation of its enrollment discrepancies;
    however, the OIG believes that our report accurately depicted these discrepancies. Mississippi
    has implemented the recommendations we made in the 2006 management letter. (Report Nos.
    04-07-006-03-390, Mississippi; 04-07-007-03-390, Texas; 04-07-008-03-390, Louisiana)

    Company Owner Charged for Violations of Davis Bacon and Related
    Acts
    The owner of a company that provided reinforcing steel and installation services to major highway
    bridge construction projects was charged in July 2007 with making false statements and with
    hiring illegal aliens to work at critical infrastructure construction sites, including bridges destroyed
    by Hurricane Katrina and a retrofit of the Interstate 40 bridge in Memphis, Tennessee. The
    employees, many of whom did not possess the requisite certifications to perform the tasks they
    were hired for (i.e., welding certifications), were allegedly provided unauthorized Social Security
    numbers for employment by the owner. Further, the owner was charged with falsifying DOL
    certified payroll forms and altering information on the I-9 Employee Eligibility Forms. This is a joint
    investigation with Immigration and Customs Enforcement (ICE) and the Social Security
    Administration (SSA) OIG.

    Louisiana Man Sentenced for Hurricane Katrina DUA Fraud
    Drewey Pierre Whittaker was sentenced in July 2007 to 27 months’ imprisonment and five years
    of supervised release, and ordered to pay $39,835.08 in restitution in connection with his scheme
    to defraud the Federal Emergency Management Agency (FEMA) and LDOL of Hurricane Katrina
    disaster relief money. Whittaker created a series of false names and false Social Security
    numbers, and then submitted 51 fraudulent applications for DUA. This was a joint investigation
    with the SSA OIG and the U.S. Postal Inspection Service (USPIS). United States v. Drewey
    Pierre Whittaker (M.D. Louisiana)

    Hurricane Evacuee Pleads Guilty to Defrauding FEMA of $44,000
    Kenyara Batiste, a Hurricane Katrina evacuee, pled guilty in September 2007 to the theft of public
    money, related to a scheme to defraud FEMA of approximately $44,000 in DUA funds. She had
    temporarily resided in Dallas, Texas, following the evacuation of New Orleans. Batiste used
    identities she possessed from a previous identity theft scheme to file and receive approximately
    20 separate claims that were sent to two addresses in Dallas. United States v. Kenyara T. Batiste
    (N.D. Texas)




8                                                                         Semiannual Report to the Congress
                                                                               April 1 – September 30, 2007
      Labor
Racketeering
                                        Labor Racketeering


     The OIG at the DOL has a unique programmatic responsibility to investigate labor racketeering
     and/or organized crime influence against unions, employee benefit plans, and workers. The
     Inspector General Act of 1978 transferred responsibility for labor racketeering and organized
     crime–related investigations from the Department to the OIG. In doing so, Congress recognized
     the need to place the labor racketeering investigative function in an independent law enforcement
     office free from political interference and competing priorities. Since the 1978 passage of the
     Inspector General Act, OIG agents, working in association with the Department of Justice’s
     Organized Crime and Racketeering Section, have been performing criminal investigations to
     combat labor racketeering in all its forms.

     Traditional Organized Crime Over the past two decades, the OIG has conducted extensive
     criminal investigations of labor racketeering. Traditionally, organized crime groups have been
     involved in loan-sharking, gambling, benefit plan fraud, violence against union members,
     embezzlement, and extortion. Our investigations continue to identify complex financial and
     investment schemes used to defraud benefit fund assets, resulting in millions of dollars in losses
     to plan participants. The schemes include embezzlement or other sophisticated methods, such as
     fraudulent loans or excessive fees paid to corrupt union and benefit plan service providers.

     Nearly 50 percent of all OIG labor racketeering investigations involve criminals attempting to
     exploit pension and employee welfare benefit plans. OIG investigations have demonstrated that
     abuses by service providers are particularly egregious due to their potential for large dollar losses
     and because they often affect several plans at the same time. As of March 2007, the OIG’s
     inventory of over 170 benefit plan cases included 65 service provider investigations with more
     than $1 billion in plan assets potentially at risk. The OIG is committed to safeguarding American
     workers against being victimized by labor racketeering and/or organized crime.

     Nontraditional Organized Crime Our current investigations are documenting an evolution of
     labor racketeering and/or organized crime corruption. We are finding that nontraditional organized
     criminal groups are engaging in racketeering and other crimes against workers in both union and
     nonunion environments. Moreover, they are exploiting DOL’s foreign labor certification and
     Unemployment Insurance (UI) programs.

     Impact of Labor Racketeering Labor racketeering activities carried out by organized crime
     groups affect the general public in many ways. Because organized crime’s exercise of market
     power is usually concealed from public view, millions of consumers unknowingly pay what
     amounts to a tax or surcharge on a wide range of goods and services. In addition, by controlling a
     key union local, an organized crime group can control the pricing in an entire industry.

     The following cases are illustrative of our work in helping to eradicate both traditional and
     nontraditional labor racketeering in the nation’s labor unions, employee benefit plans, and
     workplaces.




10                                                                       Semiannual Report to the Congress
                                                                              April 1 – September 30, 2007
                             Internal Union Investigations

   Our internal union cases involve instances of corruption such as officers who
   abuse their positions of authority in labor organizations to embezzle money from
   union and member benefit plan accounts and defraud members of their right to
   honest services. Investigations in this area also focus on situations in which
   organized crime groups control or influence a labor organization, frequently to
   influence an industry for corrupt purposes or to operate traditional vice schemes.
   Following are examples of our work in this area.



   Union Employees Indicted for Rigging Elections
   An officer and three former local union employees of one of the largest Teamsters locals in the
   country were indicted in September 2007 for allegedly conspiring together and with others to rig
   two elections in favor of an incumbent slate
   of officers in 2004.

   Between August and December 2004, the
   defendants and others allegedly caused
   hundreds of members’ addresses in an
   International Brotherhood of Teamsters
   Local 743 computer database to be changed
   from the members’ previously recorded
   addresses to new addresses belonging to
   the defendants’ friends and family.
   Fraudulently delivered ballot packages
   intended for Local 743 members in two
   closely contested elections, just months
   apart, were then allegedly collected by the
   defendants, and the ballots later were cast
   or caused to be cast in favor of the
   incumbent slate of officers. This is a joint
   investigation with USPIS and the Office of Labor-Management Standards (OLMS).

   Local Union Business Manager Charged with Embezzlement
   The former business manager of a Plumbers and Pipefitters Local Union in Texas was charged in
   April 2007 with multiple counts of embezzlement for allegedly stealing at least $80,000 while
   serving as president. Funds were stolen between 1997 and 2002 from the union’s Apprenticeship
   and Training Fund and the General Fund. The defendant served as the union’s Apprenticeship
   and Training coordinator and had financial control and oversight of the training funds checkbook
   and petty cash fund. This is a joint investigation with the Employee Benefits Security
   Administration (EBSA) and OLMS.




Semiannual Report to the Congress                                                                     11
April 1 – September 30, 2007
                                 Benefit Plan Investigations

     The OIG is responsible for combating corruption involving the monies in union-
     sponsored benefit plans. Those pension plans and health and welfare benefit
     plans comprise hundreds of billions of dollars in assets. Our investigations have
     shown that the money remains vulnerable to corrupt union officials and organized
     crime influence. Benefit plan service providers continue to be a strong focus of
     OIG investigations.



     Couple Sentenced for Several Schemes Including Theft of Union
     Funds
     A husband and wife were sentenced in August 2007 for schemes that included bribery, theft of
     union benefit funds, and UI fraud. Michael Lignos, owner of LM Lignos Enterprises, was
     sentenced to 21 months in prison and three years of supervised release, and fined $700. He was
     also ordered to pay $1,055,942 to the Ohio Department of Transportation (ODOT) and $2,480 to
                                        the Ohio Laborers’ Fringe Benefit Programs. Lignos’s wife,
                                        Maria, was sentenced to two years’ probation and 30 days’
                                        home confinement, and fined $200.

                                         From 1998 through 2005, Michael Lignos offered and paid
                                         cash bribes and other improper compensation and
                                         inducements to ODOT employees. In return, the ODOT
                                         employees permitted him to provide substandard and
                                         noncomplying performance on government-contracted
                                         interstate bridge painting contracts, which increased Lignos’s
                                         company’s profits from the projects. He further reduced labor
                                         expenses by underreporting union employees’ hours to their
                                         respective unions. Lignos submitted false statements to the
                                         Ohio Carpenters’ Health and Welfare Fund that resulted in
                                         the theft of $23,958.94. He submitted false statements to the
                                         Ohio Laborers’ Fringe Benefit Programs that resulted in the
                                         theft of $3,224. Lignos also allowed the health premiums of
                                         his employees to lapse, causing them to lose their health
                                         insurance. Maria Lignos engaged in a fraudulent UI scheme
     in which she claimed to be unemployed from LM Lignos Enterprises and received 26 weeks of UI
     benefits. This was a joint investigation with the Federal Bureau of Investigation (FBI) and the
     Internal Revenue Service Criminal Investigation Division (IRS CID). United States v. Michael
     Louis Lignos and United States v. Maria Page Lignos (N.D. Ohio)

     Health Care Officers Plead Guilty to $5 Million Fraud of Union-
     Sponsored Health and Welfare Funds
     Edgar Vargas, the American Institute of Allergy’s (AIA’s) medical director, and Diane Smoot,
     AIA’s vice president of marketing, pled guilty in June 2007 for their roles in a $5 million health
     care fraud scheme involving the submission of fraudulent medical claims to over 25 different
     Union Health & Welfare Funds and several insurance companies located in Illinois and Indiana.



12                                                                     Semiannual Report to the Congress
                                                                            April 1 – September 30, 2007
                                Benefit Plan Investigations

   The two defrauded hundreds of victims and insurance companies from 2000 to early 2007. AIA
   patients were recruited with promises of free blood testing for allergy screenings. However, the
   doctors never examined the patients to determine whether or not the testing was medically
   necessary. Further, patients’ blood samples often were not submitted for allergy screening until
   their health insurance plans agreed to pay for the tests. This delay sometimes caused the blood
   samples to deteriorate, thereby rendering the allergy tests unreliable. This is a joint investigation
   with the U.S. Food and Drug Administration Office of Criminal Investigations, USPIS, and EBSA.

   Former Business Owner Ordered to Pay More Than $3.2 Million
   Floyd Seibert, former owner of a Florida home care services company and former sole trustee to
   the company’s pension and medical plans, was sentenced in September 2007 to 46 months’
   imprisonment and 36 months’ supervised release for embezzlement from the Plans. Seibert was
   ordered to pay criminal restitution totaling $3,281,199 and was barred from any employee benefit
   fund–related employment for 13 years.

   Seibert transferred money from the Plans to Health Care International (HCI), a corporation
   created by Seibert using a fictitious identity. He then used the funds to purchase bonds totaling
   $3.85 million. Besides having no revenue from operations, HCI had no other assets other than
   $1,000 used to establish a bank account. Almost immediately after receiving the $3.85 million,
   Seibert caused the funds to be retransferred as purported loans to other corporations under his
   control, allowing Seibert to steal assets from the Plans. This was a joint investigation with EBSA.
   United States v. Floyd W. Seibert (M.D. Florida and S.D. Iowa)

   Third-Party Administrator Sentenced for Stealing from Health and
   Welfare Plan
   Edward J. Riley Jr., the president of a third-party administrator (TPA) for several Federally
   contracted security guard companies, was sentenced in July 2007 for stealing money that was
   intended for his employees’ health benefits. He was sentenced to 24 months’ incarceration and
   36 months’ supervised release, and ordered to pay $554,610.58 in restitution and a $100 special
   assessment. Riley was also barred from any employee benefit fund–related employment for 13
   years. He was the president of PrevWage Administrators, LLC, and was the trustee for the self-
   funded Health & Welfare Plan (Plan) of MVM, Inc., a security guard company in Vienna, Virginia.
   As the TPA, PrevWage was responsible for forwarding contributions deducted from the fringe
   benefit portion of the employees’ paychecks to the appropriate insurance companies and/or
   benefit plans.

   Riley pled guilty in April 2007 to wire fraud for misappropriating more than $483,000 from the Plan
   and $20,000 from an account established for the purpose of paying premiums for employees of
   various companies. The majority of these companies’ employees are members of the Security,
   Police, and Fire Professionals of America union. Riley transferred the money to his own accounts,
   which he used to pay his personal expenses. Riley concealed his actions by submitting false
   financial reports and a supporting bank statement to MVM. This was a joint investigation with the
   FBI. United States v. Edward J. Riley Jr. (E.D. Virginia)




Semiannual Report to the Congress                                                                          13
April 1 – September 30, 2007
                             Labor- Management Investigations

     Labor-management relations cases involve corrupt relationships between
     management and union officials. Typical labor-management cases range from
     collusion between representatives of management and corrupt union officials to
     the use of the threat of “labor problems” to extort money or benefits from
     employers.



     Contractor Sentenced for                           and making illegal payments to a union
                                                        official. He was also indicted for illegally
     Defrauding Union and Benefit
                                                        including the relative of a union official in his
     Fund Plans                                         employee health plan. It is alleged that
                                                        between 2001 and 2005, the defendant stole
     Fred Nisall, a contractor who was a
                                                        more than $869,000 from the International
     signatory to a collective bargaining
                                                        Brotherhood of Electrical Workers (IBEW)
     agreement (CBA) with the New York City
                                                        Local 98 Pension Fund, Deferred Income
     District Council of the United Brotherhood of
                                                        Fund, Vacation Fund, and Health & Welfare
     Carpenters and Joiners of America (UBCJ),
                                                        Fund (employee benefit plans) while
     was sentenced in September 2007. The
                                                        maintaining an under-the-table cash payroll
     investigation centers on the Genovese
                                                        of more than $2.6 million for himself and his
     Crime Family’s control of the drywall
                                                        employees. By operating in cash, the
     industry in and around New York City. In
                                                        defendant avoided paying more than $1.6
     September 2007, Nisall was sentenced to
                                                        million in Federal, state, and local payroll
     33 months’ incarceration followed by three
                                                        taxes     plus    the    required     employer
     years of supervised release. As part of his
                                                        contributions to Local 98’s employee benefit
     plea, he agreed to forfeit $1.5 million, jointly
                                                        plans.
     and severally, with co-defendants, James
     Delio and Joseph Delio. Nisall was ordered
                                                        The indictment also alleges that the
     to pay $2,115,453.20 in restitution, of which
                                                        defendant made illegal payments to an
     $1 million will go to the UBCJ and
                                                        official of the IBEW Local 98 by selling a
     $1,115,453.20 will go to the IRS. Nisall
                                                        condominium to a union official for $20,000
     conspired to defraud the District Council of
                                                        under market value and performing
     Carpenters (DCC) and the DCC Benefit
                                                        $115,600 in renovations on the official’s
     Funds by paying workers off the books,
                                                        personal residence. The defendant is further
     employing nonunion workers, not paying
                                                        charged with bribing a bank official, who
     workers      union-scale      wages,       and
                                                        approved more than $5.3 million in loans for,
     misrepresenting the number of workers on
                                                        among other things, the construction and
     reports submitted to the DCC and the
                                                        furnishing of the defendant’s personal
     Funds. United States v. Moscatiello, et al.
                                                        residence and the purchase of a property in
     (S.D. New York)
                                                        Sea Isle City, New Jersey. This is a joint
                                                        investigation with the FBI, the IRS CID, and
     Philadelphia Businessman                           EBSA.
     Faces Several Charges,
     Including Theft of Union Funds                     .

     The president of a Philadelphia-based
     electrical contracting company was charged
     in June 2007 with operating an illegal cash
     payroll, stealing from union benefit plans,


14                                                                    Semiannual Report to the Congress
                                                                           April 1 – September 30, 2007
Hurricane Katrina Response




                               Worker Safety,
                                  Health, and
                             Workplace Rights
                           Mine Safety and Health Administration

     The Federal Mine Safety and Health Act of 1977, as amended by the Mine Improvement
     and New Emergency Response Act of 2006 (MINER Act), charges the Mine Safety and
     Health Administration (MSHA) with protecting the health and safety of over 300,000
     men and women working in our nation’s mines.


     In recent years, OIG audits of MSHA’s programs and performance have revealed
     several areas in need of improvement. For example, OIG audits uncovered the need to
     strengthen (1) the coal mine hazard complaint process and (2) the internal peer review
     process, which is intended to ensure that mine safety inspectors are doing their jobs
     effectively. In addition, the OIG has recommended that MSHA improve controls over
     its performance data related to fatalities and injuries. The OIG will continue to exercise
     strong oversight of MSHA’s administration of its health and safety mission.



     MSHA’s Office of Coal Mine Safety and Health Needs to Strengthen Its
     Accountability Program
     MSHA established the Accountability Program in its Office of Coal Mine Safety and Health (CMS&H)
     to ensure that its health and safety enforcement program was working effectively. The Accountability
     Program is MSHA’s internal peer review process, which is supposed to ensure that mine safety
     inspectors are doing their jobs effectively.

     We performed an audit of the CMS&H Accountability Program as part of our ongoing assessment of
     MSHA’s safety and health programs and responsibilities, and in part due also to the increase in coal
     mining accidents. Our audit found that the program is not well designed and should be strengthened.
     We concluded that the Accountability Program did not provide adequate assurance that CMS&H’s
     oversight responsibilities were effectively and consistently performed. Further, program
     implementation varied across CMS&H nationwide, and CMS&H did not effectively use the results of
     the accountability reviews to improve its operations timely and consistently.

     Specifically, CMS&H’s criteria for selecting enforcement areas to review emphasized mine operator
     performance instead of the performance of MSHA personnel. Also, an inherent conflict of interest
     exists in the program because District Managers can select activities under their control for review.
     Additionally, some peer reviews looked only at paper records of mine inspections, and peer review
     teams did not always visit the mines to review what inspectors had examined. Further, CMS&H did not
     consistently track and monitor corrective actions or communicate systemic problems and best
     practices across the organization. Recent tragic events involving several mines underscore the
     importance of thorough mine safety inspections and of having an effective peer review process to
     provide assurance that mine inspections are conducted properly.




16                                                                       Semiannual Report to the Congress
                                                                              April 1 – September 30, 2007
                        Mine Safety and Health Administration

   We reported our preliminary findings to MSHA in a September 2006 management letter. As a result,
   CMS&H began to take steps to improve the program. As we completed our audit, we determined that
   CMS&H needed to take further action to strengthen the integrity and usefulness of the program’s
   results. We made 14 additional recommendations aimed at improving the performance and results of
   the Accountability Program in the areas of program design and planning, implementation, reporting,
   and analysis. MSHA has planned corrective actions to address nine of these recommendations. The
   remaining five recommendations remain unresolved. (Report No. 05-07-002-06-001)




Semiannual Report to the Congress                                                                17
April 1 – September 30, 2007
                    Occupational Safety and Health Administration

     The Occupational Safety and Health Administration (OSHA), authorized by the
     Occupational Safety and Health Act of 1970, promulgates and enforces occupational
     safety and health standards and provides compliance assistance to employers and
     employees.


     OIG audits of OSHA’s programs and processes have identified opportunities for
     strengthening OSHA’s enforcement and compliance assistance activities. For
     example, the OIG has noted the need for improvements in OSHA’s Consultation
     Program as discussed below. In addition, over the past few years, OIG investigative
     work has resulted in the successful prosecution of employers who have willfully failed
     to provide adequate safety and protection to their employees, particularly in the
     construction industry.



       Worker Safety at Risk When                     extensions to correct serious hazards.
       Employers Do Not Correct                       Second, employers who did not complete
                                                      corrective actions in a timely manner were
       Serious Hazards in a Timely                    seldom referred for enforcement action. As a
       Manner                                         result of these shortcomings, employees
                                                      may have continued to work under
       OSHA’s Consultation Program, which is          hazardous conditions.
       targeted primarily to small businesses, was
       designed to assist employers in voluntarily    We made several recommendations to
       identifying and correcting serious workplace   OSHA to help ensure that workers are not
       hazards without immediate enforcement          exposed to serious safety hazards.
       action by OSHA. However, Consultation          Specifically, we recommended that OSHA
       Program officials are required to explain to   enforce requirements for interim safety
       employers who request to participate in the    protection, and refer employers who do not
       program that if they do not correct serious    correct hazards in a timely manner. Further,
       hazards in a timely manner, the hazardous      we recommended that OSHA provide
       situation will be immediately referred for     guidance to the states on acceptable types
       enforcement action.                            of interim protection and establish a
                                                      performance measure that benchmarks and
       Our performance audit of the resolution of     reports the percentage of serious hazards
       serious workplace hazards identified by the    corrected by the initial correction due date—
       OSHA Consultation Program found that,          that is, the date corrective action was
       while more than 28,000 serious hazards in      originally expected before any extensions
       the three states we audited were identified    were granted.
       and corrected, two critical program
       requirements were not working as intended.     OSHA agreed with our recommendations,
       First, Consultation Program officials seldom   with the exception of our recommendation
       ensured that interim protection was in place   on a new performance measure. OSHA
       before granting employers’ requests for        stated that it currently has a performance



18                                                                  Semiannual Report to the Congress
                                                                         April 1 – September 30, 2007
                Occupational Safety and Health Administration

   measure to benchmark the percentage of         “timely” as hazards corrected within 14 days
   serious hazards verified as corrected in a     of the latest due date—a date that includes
   timely manner. As an alternative, OSHA         all extensions that had been granted. For
   stated that it plans vigorous monitoring and   this reason, the measure is ineffective in
   the creation of specific benchmarks for        evaluating timely corrective action because
   states that may have problems monitoring       it is measured from the date of the latest
   employer correction of serious hazards.        extension granted instead of from the
                                                  original date corrective action was expected.
   The performance measure OSHA uses does         (Report No. 05-07-001-010-105)
   not     address   our   recommendation
   sufficiently. OSHA’s measure defines




Semiannual Report to the Congress                                                                 19
April 1 – September 30, 2007
  Employment and
Training Programs
                                           Job Corps

     Job Corps operates 122 centers throughout the United States and Puerto Rico to
     provide occupational skills, academic training, job placement services, and other
     support services such as housing and transportation to approximately 60,000
     students each year. Its primary purpose is to assist eligible at-risk youth who
     need intensive education and training services. The OIG is statutorily required to
     audit Job Corps centers every three years.


     The OIG has noted that Job Corps has reported that it had deferred maintenance
     of more than $15 million for repairs needed for buildings, fire protection, and roof
     replacement. Recent audit work has revealed that some operators of Job Corps
     Centers overstated their performance results (i.e., student job placement, high
     school diploma attainment, attendance, and training records) in order to improve
     the centers’ operating performance, which can result in the operating contractor
     receiving greater performance-based financial incentives. During this Semiannual
     Report period, we completed three audits of Job Corps Centers.



     Performance Audits of Two                     reporting is important because Job Corps
                                                   contracts are performance-based, and the
     Job Corps Centers —
                                                   measures reported by contractors influence
     $344,175 in Questioned Costs                  the amount the operators are paid, how
                                                   much DOL oversight they receive, and their
     We conducted performance audits of the
                                                   competitiveness for future contracts.
     Laredo Job Corps Center (JCC) operated by
     Career Systems Development Corporation
                                                   We found a number of problems in the
     under contract to DOL, and the Cleveland
                                                   reported performance data at Laredo,
     JCC, operated by Applied Technology
                                                   including failure to report all students’
     Systems, Incorporated (ATSI), also under
                                                   absences and placing students on unpaid
     contract to DOL. Our objectives were to
                                                   administrative leave, which is a violation of
     determine whether the Centers’ financial
                                                   Job Corps requirements. We also found that
     and performance data were accurate and
                                                   students had been permitted to exceed the
     whether internal controls and operational
                                                   allowable number of AWOL days. As a
     procedures were in compliance with the Job
                                                   result, Laredo JCC retained students in its
     Corps Program Requirements Handbook
                                                   reported on-board strength in violation of
     (PRH). We found problems in the following
                                                   Job Corps requirements, and the operator
     areas at the centers we audited.
                                                   owed DOL $96,962 in liquidated damages.
     At the Laredo JCC, we concluded that
                                                   In addition, Laredo JCC did not obtain
     DOL’s contractor for Center operations did
                                                   required background checks for students
     not comply with Job Corps requirements
                                                   entering the Job Corps program. Inadequate
     governing the reporting of student
                                                   background checks of admitted students can
     attendance. Reliable performance measure



22                                                             Semiannual Report to the Congress
                                                                    April 1 – September 30, 2007
                                             Job Corps

   compromise the safety and achievement of         that did not benefit the Job Corps program.
   all   students    at   the    Center.     We     (Report No. 26-07-003-01-370)
   recommended that the Office of Job Corps
   require Career Systems Development               Student Attendance and
   Corporation to improve controls over Laredo      Training Data Overstated at
   JCC’s student reporting and background
   checks and repay $96,962 in liquidated
                                                    Grafton Job Corps Center
   damages pursuant to its contract with DOL.
                                                    We conducted a performance audit of the
   In response to the draft report, the Office of
                                                    Grafton JCC, operated by Adams and
   Job Corps concurred with all four
                                                    Associates, Inc., to determine whether an
   recommendations and plans to work with the
                                                    allegation that Grafton JCC officials
   DOL Contracting Officer to pursue liquidated
                                                    manipulated student leave and training
   damages. (Report No. 09-07-002-01-370)
                                                    records to enhance the Center’s reported
                                                    performance       measures      could    be
   ATSI, the contractor at the Cleveland JCC,
                                                    substantiated. We substantiated the hotline
   did not always comply with Job Corps
                                                    allegation that Grafton JCC officials
   requirements for reporting on the Center’s
                                                    overstated      the    on-board     strength
   financial operations. Specifically, ATSI did
                                                    performance measure by retaining students
   not properly reconcile public vouchers it
                                                    who should have been separated. We found
   submitted for payment with financial reports
                                                    that Grafton JCC had improperly extended
   as the PRH required. We questioned
                                                    the stay of these students by 910 days.
   $323,861 related to vouchers that exceeded
   the amounts supported by Cleveland JCC’s
                                                    It is essential for Job Corps to have reliable
   financial reports.
                                                    data for performance measures to determine
                                                    contractor efficiency. As a result of the
   Further, ATSI obtained $20,310 in
                                                    Center operator overstating on-board
   consulting services for Cleveland JCC
                                                    strength, we determined that it owed
   without contracting officer approval and did
                                                    liquidated damages of $56,824 to DOL.
   not maintain a report of the services
                                                    Center officials had also recorded students
   obtained, as required by the contract. As a
                                                    as completing vocational training even
   result, there were no assurances that the
                                                    though their official progress record showed
   services were needed or benefited the
                                                    that they had not satisfied all requirements
   Center.
                                                    to successfully complete this training.
   We concluded that neither the Office of Job
                                                    We recommended that the Office of Job
   Corps nor DOL’s Office of the Assistant
                                                    Corps verify that Grafton has taken actions
   Secretary       for    Administration    and
                                                    to strengthen the control environment to
   Management (OASAM) provided effective
                                                    ensure     proper   recording    of   leave,
   monitoring of ATSI to assess compliance
                                                    attendance, and vocational completion and
   with Job Corps requirements. This lack of
                                                    that it monitor all Centers operated by
   oversight contributed to the breakdown in
                                                    Adams and Associates, Inc., to ensure the
   controls. We recommended that ATSI
                                                    accuracy      of   reported    performance
   improve its controls over financial reporting
                                                    measures. Finally, we recommended that
   and provide DOL support for the $323,861 in
                                                    Adams and Associates, Inc., pay the
   public vouchers submitted in excess of
                                                    liquidated damages we identified. The Office
   amounts       reported   and    $20,310     in
                                                    of Job Corps concurred with all five
   questionable payments for consulting
                                                    recommendations and plans to work with the
   services. The Office of Job Corps concurred
                                                    DOL contracting officer to pursue liquidated
   with all six recommendations and committed
                                                    damages. (Report No. 09-07-004-01-370)
   to working closely with contracting officials
   assigned to OASAM to recover any monies



Semiannual Report to the Congress                                                                    23
April 1 – September 30, 2007
                                 Workforce Investment Act

     The goal of the Workforce Investment Act (WIA) is to increase employment,
     retention, and earnings of program participants. The OIG has conducted
     numerous audits of the WIA program and its grantees since WIA’s enactment,
     including audits of state WIA expenditures, training and educational services
     provided to dislocated workers, and state-report performance data. The
     Department has implemented many of our recommendations to improve WIA
     program administration and performance.


     OIG investigations have resulted in the prosecution of individuals who illegally
     obtained WIA funds, denying eligible persons the benefit from employment
     services. Our investigations have also documented conflict-of-interest issues
     involving program administrators.



     Review of ETA Contract Raises                  specific subcontractor. This action created
     Concerns of Preferential                       an appearance of preferential treatment
                                                    toward that subcontractor. Further, we
     Treatment                                      determined that the contractor expected that
                                                    it would perform only 32 percent of the cost
     In response to a complaint, we conducted
                                                    of the contract for personnel with its own
     an audit to determine whether the Assistant
                                                    employees, although SBA regulations
     Secretary for the Employment and Training
                                                    require that 8(a) contractors perform at least
     Administration (ETA) directed the use of a
                                                    50 percent. In addition, ETA did not
     specific subcontractor on a task order to
                                                    calculate this work performance requirement
     support the “Workforce One” project. The
                                                    semiannually, as required.
     complaint also alleged that ETA violated the
     Federal Acquisition Regulation by approving
                                                    This report incorporated findings about
     a task order in which substantially all cost
                                                    violations of regulations and contract
     and work was passed through the 8(a)
                                                    provisions that we had communicated to
     contractor to its subcontractor, which was
                                                    ETA in a June 2006 Alert Report. Our audit
     not an 8(a) business. The purpose of the
                                                    completed in this period made a
     8(a) program is to assist eligible small
                                                    recommendation to ETA regarding violations
     disadvantaged        businesses.        The
                                                    of the 8(a) program. ETA concurred with this
     Department’s partnership agreement with
                                                    recommendation. (Report No. 05-07-003-03-
     the Small Business Administration (SBA)
                                                    390)
     makes the contracting agency, in this case
     ETA, responsible for complying with SBA
     regulations.

     We did not substantiate the allegations we
     received; however, our audit disclosed that
     the ETA contracting officer had violated
     sound      procurement     practices     by
     recommending that an 8(a) contractor use a


24                                                               Semiannual Report to the Congress
                                                                      April 1 – September 30, 2007
                                 Workforce Investment Act

   Continued Misuse of Job                           We substantiated an allegation that UWCA
                                                     did not operate an effective Youth
   Training Funds in Florida—
                                                     Opportunity Grant program and did not meet
   Over $6.1 Million in Questioned                   performance goals for employment, high
   Costs                                             school graduation, and college enrollment.
                                                     Specifically, although the program enrolled
   The Department’s Office of the Solicitor          just one-third of the number of participants
   requested that we follow up on our audit of       required by the $20 million grant, 96 percent
   Florida’s use of Job Training Partnership Act     of the award funds were spent. This finding
   (JTPA) funds for its Performance Based            demonstrates the importance of close
   Incentive Funding (PBIF) program. Our             monitoring to ensure that job training funds
   previous audit found that Florida’s PBIF          are used as intended.
   program did not meet JTPA requirements. In
   fact, the program was being used as a
   funding mechanism that utilized JTPA
   monies to supplement Florida’s State and
   local adult educational costs. Florida repaid
   nearly $11.6 million as a result of that audit.

   The follow-up audit we conducted during this
   semiannual period covered June 10, 1998,
   to June 30, 2000, the effective date of
   JTPA’s repeal. We concluded that Florida
   had continued to use JTPA funds
   inappropriately, and we questioned over
   $6.1 million of additional JTPA Title III funds
   that Florida used to fund the PBIF program
   during the period we audited. (Report No.
   04-07-009-03-340)

   Birmingham Youth Opportunity
   Program Did Not Meet                              We did not substantiate allegations
   Performance Goals                                 pertaining to improper use of DOL funds to
                                                     purchase office equipment and failure to pay
   In response to a hotline complaint, we            employees’ wages in accordance with the
   conducted an audit of five allegations that       terms of the grant. Our results pertaining to
   officials for the Birmingham Works for Youth      allegations that case managers falsified
   (BWY) program misused and mismanaged              participant records and overstated program
   job training funds provided by the                enrollment to ETA were inconclusive.
   Department. BWY was established by the
   United Way of Central Alabama (UWCA), a           Based on our finding that UWCA did not
   service      provider    under   the   Youth      operate     an     effective  program,    we
   Opportunity Grant program, which was              recommended that the Assistant Secretary
   created by WIA to increase employment for         for ETA provide technical assistance and
   young people living in certain disadvantaged      monitor other DOL-funded            programs
   areas. Between March 2000 and June 2006,          operated by Jefferson County. In responding
   UWCA, under contract with the Jefferson           to the draft audit report, UWCA stated that it
   County, Alabama, Office of Community              operated the Youth Opportunity Grant
   Development, received $20 million intended        program in a programmatically and fiscally
   for the Youth Opportunity Grant program.          responsible manner under ETA’s direct
                                                     oversight. (Report No. 04-07-003-03-390)



Semiannual Report to the Congress                                                                     25
April 1 – September 30, 2007
                                  Workforce Investment Act

     Compensation for Local                          Civil Complaint Seeks
     Workforce Investment Area                       Treble Damages Exceeding
     Executives Profiled                             $1.1 Million
     The Assistant Secretary for ETA requested       In May 2007, a civil complaint was filed
     that we collect data on the amount and          against the owner of Merit Technical
     types of compensation paid to Local             Institute. Victor Mungai Kamunge was
     Workforce      Investment    Area    (LWIA)     convicted and sentenced in October 2006
     executives involved in the administration of    for fraudulently obtaining approximately
     LWIA funds. A March 2006 Iowa State audit       $392,000 from the U.S. Departments of
     report had disclosed that one LWIA, the         Education and Labor. The complaint seeks
     Central Iowa Employment and Training            treble damages totaling $1,177,557, less the
     Consortium, paid three top executives $1.8      amount of restitution already paid by
     million over a 30-month period.                 Kamunge in connection with his criminal
                                                     case. In addition, the United States seeks
     We conducted an audit to collect data from      the assessment of civil penalties totaling
     592 LWIAs including 1,688 executives. For       between $1,140,000, and $2,280,000 for
     2004–2006, these executives had combined        228 false transactions Kamunge made
     base salaries and bonuses totaling $307         under DOL’s Workforce Investment Act and
     million. Overall, the average combined base     U.S. Department of Education programs to
     salaries and bonuses earned by LWIA             fraudulently obtain educational and training
     executives nationwide were $66,469,             funds. This was a joint investigation with the
     $68,897, and $71,264 for 2004, 2005, and        Department of Education. United States v.
     2006, respectively.                             Victor Mungai Kamunge (D. New Jersey)

     However, LWIAs reported eight executives        Contractor Agrees to Pay Over
     whose combined base salary and bonuses
                                                     $2 Million for Submitting
     were at least $165,200 for one or more
     periods during 2004 through 2006.               Inflated Claims
     Seventeen LWIAs reported on 19 executives
                                                     Affiliated Computer Services, Inc. (ACS), a
     whose combined base salary and bonuses
                                                     private contractor under DOL’s WIA
     were at least $150,000 for one or more
                                                     program, agreed to pay $2,645,987.30 to
     years during 2004 through 2006, and were
                                                     resolve allegations that between 2002 and
     thus approaching the salary cap imposed in
                                                     2005 it violated the civil False Claims Act by
     June 2006.
                                                     submitting inflated claims for payment for
                                                     programs run by and through USDA, DOL,
     While we did not make specific
     recommendations, we suggested that the          and HHS. ACS was compensated with profit
     Assistant Secretary for ETA consider the        and incentive payments by the Texas
     data we provided in ETA’s ongoing               Workforce Commission (TWC) and the
                                                     Dallas      County        Local      Workforce
     monitoring of the LWIAs. ETA responded
                                                     Development Board, Inc., based on the
     that it would use information from the report
                                                     number of individuals enrolled in specific
     during ETA policy discussions. In June
                                                     Federal programs. ACS cooperated fully
     2006, Public Law 109-234 imposed a salary
                                                     with the government’s investigation and
     and bonus cap of $165,200, equal to
                                                     voluntarily reported conduct by several
     Federal Executive Level II, for executives
                                                     former employees that it believed resulted in
     with ETA recipients and subrecipients.
                                                     payments from the Board to which ACS was
     (Report No. 02-07-204-03-390)
                                                     not entitled. This was a joint investigation
                                                     with the HHS OIG, USDA OIG, and TWC.




26                                                                Semiannual Report to the Congress
                                                                       April 1 – September 30, 2007
                       Foreign Labor Certification Programs

   The Department’s foreign labor certification programs provide U.S. employers
   access to foreign labor to meet worker shortages. The Permanent Foreign Labor
   Certification program allows an employer to hire a foreign national to work
   permanently in the United States.


   OIG investigations have revealed that the foreign labor certification process
   continues to be compromised by unscrupulous attorneys, labor brokers,
   employers, and others. A recent OIG case led to the conviction of a former owner
   of an information technology company who fraudulently assisted hundreds of
   foreign workers to live and work illegally in the United States. He was sentenced
   to prison and ordered to forfeit $5.7 million for his crime.



   State Representative Pleads Guilty to Visa Fraud
   Nathan Cooper, Missouri State Representative, State Majority Floor Whip, and immigration
   attorney, pled guilty to fraud charges involving his illegal scheme to obtain temporary worker
   visas for his clients in the trucking industry. Cooper, representing a number of employers in
   applications for visas under DOL’s H-2B program, created fraudulent shell companies through
   which he applied for and illegally obtained visas that permitted his clients to illegally hire
   employees. For his fraudulent efforts, Cooper received monthly payments from his clients, in
   further violation of the H-2B program. As part of his plea agreement, Cooper agreed to forfeit
   approximately $50,000 in legal fees that he obtained from clients and resigned from his State
   Representative position. Additionally, Cooper’s law license was suspended by the Missouri
   Supreme Court until final disposition of the case. This is an ongoing joint investigation with the
   Department of Homeland Security (DHS), Immigration and Customs Enforcement (ICE), the DOS
   Diplomatic Security Service (DSS), and the FBI. United States v. Nathan Cooper

   Father and Son Charged in Scheme That Yielded More Than $2
   Million
   A father and son, who were both operating a business to illegally obtain work visas, permanent
   residence, and other immigration benefits for aliens living in the United States and abroad, were
   indicted for allegedly submitting over 200 false employment-based visa petitions, fraudulent job
   offer letters, and other related documents to the U.S. Citizenship and Immigration Services
   (USCIS). The subjects collected more than $2 million from applicants consisting of workers from
   the Caribbean and Latin America. The defendants allegedly filed immigration petitions for alien
   clients to obtain employment-based resident visas (green cards) and H-1B visas indicating that
   the aliens worked in specialized areas. The subjects, however, falsely represented the job
   positions, their clients’ educational backgrounds, and their company’s ability to employ and
   sustain such a large number of alien workers. In addition, the defendants allegedly submitted
   fraudulent Form ETA-750 and ETA-9035 applications for labor certifications to the Florida Agency
   for Workforce Innovation and DOL. This is a joint investigation with the IRS CID and DHS ICE.



Semiannual Report to the Congress                                                                       27
April 1 – September 30, 2007
                          Foreign Labor Certification Programs

     Two Brothers Indicted for Filing Fraudulent Labor Certifications for
     Personal Gain
     Two brothers were indicted in September 2007 for their role in a scheme in which they allegedly
     used their family-owned construction company to fraudulently file labor certifications on behalf of
     Korean nationals. A third brother had previously pled guilty to immigration fraud in April 2007. The
     brothers are suspected of charging aliens seeking employment-based visas more than $30,000
     per sponsorship. As part of the scheme, approximately 60 aliens allegedly obtained more than
     $1.1 million in fictitious payroll checks from the construction company. They then used the payroll
     checks to fraudulently demonstrate to the Federal government that they worked for that company
     when, in fact, they did not. This is an ongoing investigation with the DOS OIG and DSS, DHS,
     and the FBI.




     Individuals Allegedly Submitted Hundreds of False ETA-750s
     Three individuals, who are listed as officers and employees of Florida-based Eurohouse Holding
     Corporation, were indicted in September 2007 for their participation in a visa fraud and alien
     smuggling conspiracy. From at least 2003 to the present, the defendants defrauded DOL’s
     foreign labor certification program, the DHS, and the Department of State (DOS) on a sustained
     basis. The individuals prepared and submitted more than 200 fraudulent ETA-750 applications for
     H-2B temporary foreign workers and nonimmigrant visa petitions for alien beneficiaries that
     permitted the beneficiaries to enter and reside in the United States as temporary workers within
     the hotel industry. This is a joint investigation with the DOS DSS, ICE, and the FBI.




28                                                                      Semiannual Report to the Congress
                                                                             April 1 – September 30, 2007
 Worker
Benefits
                           Unemployment Insurance Program

     The Department partners with the states in administering two unemployment
     benefit programs. The first, Unemployment Insurance (UI), provides benefits to
     eligible workers who are unemployed through no fault of their own and meet
     eligibility requirements established by their respective state. UI benefits are
     financed through employer taxes imposed by the states and collected by the
     Internal Revenue Service, which holds them in the Unemployment Trust Fund until
     needed to pay benefits.


     The second program, Disaster Unemployment Assistance (DUA), is a Federally
     funded program that provides financial assistance to individuals who lose their
     jobs as a direct result of a major disaster and are not eligible for state UI benefits.
     OIG audits conducted after the 2005 hurricanes demonstrated the importance of
     effective controls to ensure that unemployment benefits reach only eligible
     persons.


     Following the hurricanes in 2005, the OIG focused attention on administration of
     the DUA program. In addition to our audit work, the OIG actively performs criminal
     investigations and refers for prosecution cases that involve individuals who
     defraud unemployment benefit programs. Recent investigations have documented
     the manner in which criminals steal identities to file for fraudulent UI benefits.



     California Woman Pleads Guilty                  of several fraudulent UI claims. This case
                                                     was a joint investigation with the California
     to Theft of UI Funds
                                                     EDD. United States v. Tina Yayoi Turley
     Tina Turley, a former accounting technician     (E.D. California)
     for the California Employment Development
     Department (EDD), pled guilty in September      Several Individuals Sentenced
     2007 to mail fraud for her role in a UI fraud   for UI Identity Theft Scheme
     scheme. She agreed to pay $100,000 in
     restitution to the California EDD. Turley       Garry Carrasco, Jerry Lopez, Pedro Lopez,
     made improper entries in that department’s      Laura Aguilera, and Ernest Echeveste were
     computerized UI system in which she             sentenced during May and June 2007 on
     altered the wage histories of several friends   several charges for their role in a UI identity
     and relatives. She added wages to increase      theft fraud scheme. They illegally obtained
     their UI benefits and received kickbacks in     benefits from the California EDD by stealing
     return. Turley used two inactive companies      the identities of several victims and filing
     as base-period employers, allowing the filing   fraudulent UI claims using the stolen



30                                                                Semiannual Report to the Congress
                                                                       April 1 – September 30, 2007
                          Unemployment Insurance Program

                                                    Pedro Lopez was sentenced to 30 months’
                                                    incarceration and 36 months’ probation, and
                                                    was ordered to pay $106,497 in restitution.
                                                    This was a joint investigation with the
                                                    California EDD and the Reedley, California,
                                                    Police Department. United States v. Gary
                                                    Carrasco, et al. (E.D. California)


                                                    Office of Workers’ Compensation Programs




   identities. Many of the stolen identities were
   obtained from vehicle loan applications. The
   defendants then conspired with individuals
   working at several different car dealerships
   to purchase copies of customer vehicle loan
   applications containing personal information,
   including Social Security numbers. All five
   defendants were friends and members of a
   local gang. After filing for the UI claims the
   defendants used addresses of other family
   members or friends in order to receive the
   fraudulently obtained benefits.

   Aguilera was sentenced to eight months’
   incarceration and 150 days of home
   confinement, and was ordered to pay
   $125,051 in restitution. Echeveste was
   sentenced to 41 months’ incarceration, 36
   months’ probation, and 500 hours in a drug
   treatment program, and was ordered to pay
   $232,632 in restitution. Carrasco was
   sentenced to 33 months’ incarceration and
   36 months’ probation, and was ordered to
   pay $497,776 in restitution. Jerry Lopez was
   sentenced to 12 months plus one day of
   incarceration and 36 months’ probation, and
   was ordered to pay $40,246 in restitution.



Semiannual Report to the Congress                                                                 31
April 1 – September 30, 2007
                      Office of Workers’ Compensation Programs

     The Federal Employees’ Compensation Act (FECA) program provides income and
     pays medical expenses for covered Federal civilian employees who are injured on
     the job or who have work-related occupational diseases, and dependents of
     employees whose deaths resulted from job-related injuries or occupational
     diseases. The Employment and Standards Administration’s Office of Workers’
     Compensation Program (OWCP) administers the FECA program, which impacts
     employees and budgets of all Federal agencies, as they rely upon OWCP to
     adjudicate claims eligibility and to pay medical expenses.


     In addition to the FECA program, the Employment and Standards Administration’s
     (ESA’s) OWCP administers three other disability compensation programs to
     provide wage replacement benefits, medical treatment, vocational rehabilitation,
     and other benefits to certain workers for work-related injuries or occupational
     disease.



     Process to Determine                                evidence indicated that benefits should have
                                                         been reduced, and did not require regular
     Dependent Eligibility for FECA
                                                         medical updates for certain persons, such
     Compensation Needs                                  as disabled dependent children, as required
     Improvement                                         by Federal regulations. Additionally, the
                                                         District Office did not ask for dependent or
     We conducted a performance audit of the             survivor Social Security numbers. This
     dependent eligibility process for FECA              information could improve OWCP’s ability to
     benefits to determine whether there were            ensure the legitimacy of the dependent or
     appropriate mechanisms to terminate                 survivor being claimed. We also found that
     payments when dependents or survivors               requiring claimants to submit copies of their
     were no longer eligible for these benefits.         Federal tax returns annually would provide
     Our audit was performed at the Jacksonville,        another means for OWCP to verify
     Florida, District Office of the Division of         dependent status.
     Federal Employees Compensation (DFEC),
     Office of Workers’ Compensation. In fiscal          We recommended that OWCP and the
     year (FY) 2004, the Jacksonville office             District Office revise the FECA procedure
     processed 20,000 claims. Of DFEC’s 12               manual to conform with program regulations
     district offices, Jacksonville processed the        requiring the semiannual submission of
     highest number of claims.                           medical evidence for disabled dependent
                                                         children, include dependents’ and survivors’
     We found that the District Office continued         Social Security numbers on key forms, and
     compensation payments even though                   require claimants to submit their Federal tax
     claimants had not provided required                 returns annually to assist in verifying
     evidence of their continuing eligibility, did not   dependent status. We also recommended
     reduce compensation payments when                   that the District Office perform timely



32                                                                   Semiannual Report to the Congress
                                                                          April 1 – September 30, 2007
                   Office of Workers’ Compensation Programs

   followup. and suspend compensation                not included in OWCP’s handbooks and
   payments when claimants do not provide            training materials. Further, compensation
   required information within the time specified    managers were not aware of changes to
   by regulation. In response to the draft report,   weekly or monthly schedule award
   ESA      agreed     with    three    of    our    payments resulting from cost-of-living
   recommendations but disagreed with our            increases.
   recommendation to require claimants to
   submit their Federal tax returns annually.        Our evaluation of the audit’s findings and
   ESA noted that the definitions of a               recommendations determined that the
   “dependent” differ for the IRS and ESA,           USPS OIG auditors identified inaccurate
   which could cause further confusion of the        payments because OWCP used incorrect
   actual status. Further, many claimants do         pay rates. We believe that agencies should
   not have any need to file a tax return            have the opportunity to verify that the correct
   because they have no income beyond their          elements were used to calculate the
   ESA compensation benefits, which are tax-         schedule award. We recommended that the
   free. (Report Number 04-07-004-04-431)            Assistant Secretary for ESA require OWCP
                                                     to include in its training for employing
   Guidance Needed from                              agencies the methodology for verifying the
   DOL’s Office of Workers’                          accuracy of the schedule award payments in
                                                     the chargeback report. Additionally, the
   Compensation to Calculate                         training should be designed to delineate
   Accurate FECA Schedule                            responsibilities between OWCP and the
   Awards                                            employing      agencies.     The      Assistant
                                                     Secretary for ESA agreed to implement our
   In July 2006, the President’s Council on          recommendations. (Report No. 03-07-005-
   Integrity and Efficiency issued the Protocol      04-431)
   for OIG Audits, Inspections, Evaluations,
   and     Investigations   of   the   Federal       Woman Sentenced for
   Employees’ Compensation Act Program to
                                                     Defrauding Coal Mine Workers’
   guide how the DOL OIG and other Federal
   oversight agencies raise governmentwide           Compensation Program
   issues related to the FECA program.
                                                     Toni Benevento, a Colorado resident, was
   Pursuant to the protocol, the U.S. Postal
                                                     sentenced in August 2007 for defrauding the
   Service Office of Inspector General (USPS
                                                     Division    of   Coal     Mine     Workers’
   OIG) asked us to evaluate its audit findings
                                                     Compensation (DCMWC) program of Black
   and recommendations regarding the USPS
                                                     Lung survivor benefit funds. She was
   schedule award program in the New York
                                                     sentenced to 10 months’ home detention
   Metro Area.
                                                     and three years’ supervised release, and
   A schedule award is a form of compensation        ordered to pay restitution of $45,162.
   paid for specified periods of time for the        Benevento’s mother, who was a recipient of
   permanent loss, or loss of use, of certain        Black Lung survivor benefits, died in
   physical functions or for various types of        January 1989, leaving no eligible survivor to
   impairment. The severity of the impairment        receive the benefits. By failing to notify
   determines how long these payments will be        DCMWC of her mother’s death, Benevento
   made. A September 2006 audit by the               caused DCMWC to electronically deposit 93
   USPS OIG concluded that Postal Service            additional Black Lung survivor benefit
   compensation managers did not know how            checks into her mother’s bank account.
   to calculate and verify schedule award            Benevento then electronically transferred
   payments charged by OWCP because                  the benefit money to her own bank account
   instructions for making these payments were



Semiannual Report to the Congress                                                                      33
April 1 – September 30, 2007
                      Office of Workers’ Compensation Programs

     on at least 184 separate occasions. United          abuse, and less likely to cause withdrawal
     States v. Toni E. Benevento (D. Colorado)           symptoms than other pain medications.
                                                         DOL’s OWCP was billed in excess of $42
     Former Federal Aviation                             million for OxyContin that was prescribed to
     Administration Employee                             Federal beneficiaries receiving medical care
                                                         through the FECA program, the Black Lung
     Sentenced for FECA Fraud                            Benefits Act, and the Energy Employees
                                                         Occupational Illness Compensation Program
     Jeffrey Bell, a former Federal Aviation
                                                         Act. Purdue Pharma received five years’
     Administration electronics technician, was
                                                         probation and was ordered to pay a
     sentenced in August 2007 to one year in
                                                         $500,000 fine, a $400 special assessment
     prison for illegally obtaining in excess of
                                                         fee, and a combined total of $634 million in
     $103,000 in FECA benefits. He was ordered
                                                         restitution, forfeiture, fines, a civil settlement,
     to make $10,000 in restitution. Bell failed to
                                                         and monitoring costs to ensure that the
     report to OWCP that he earned in excess of
                                                         company does not engage in any further
     $133,000 while he received FECA benefits
                                                         criminal activity. Of the $634 million global
     for a workplace neck injury he filed in 2001.
                                                         settlement, $282 million was attributed to
     This was a joint investigation with the
                                                         DOL’s participation in this investigation.
     Defense Criminal Investigative Service
     (DCIS). United States v. Jeffrey L. Bell (D.
                                                         Purdue     Pharma’s     president,   Michael
     New Jersey)
                                                         Friedman; former Purdue medical director,
                                                         Paul D. Goldenheim; and Purdue lawyer,
     Federal Employee Sentenced                          Howard Udell, each were sentenced to three
     for Defrauding Federal Program                      years’ probation and 400 hours of
                                                         community service related to a drug
     Martha Johnson, a former associate regional         treatment or prevention program, and
     administrator for the Health Care Finance           ordered to pay a $5,000 fine and a $25
     Administration, was sentenced in August             special assessment fee. In addition, fines of
     2007 to 180 days’ home confinement and              $19 million, $7.5 million, and $8 million,
     ordered to pay a criminal penalty of $60,000,       respectively, paid by the three individual
     civil liability of $80,000, and a $5,000 fine for   defendants are included in the $634 million
     FECA fraud. Since 2000, Johnson certified           settlement. This was a joint investigation
     that she did not work or receive an outside         with the Virginia Attorney General’s
     income and was therefore entitled to receive        Medicaid Fraud Control Unit, the U.S. Food
     FECA benefits for a back injury sustained in        and Drug Administration Office of Criminal
     1999. However, Johnson was observed                 Investigations, the IRS CID, the U.S.
     operating a bed-and-breakfast and assisting         Department of Health and Human Services
     gardeners with landscaping on the grounds.          OIG, DCIS, the Virginia State Police, and
     OWCP calculated a 10-year cost savings of           the West Virginia State Police.
     $570,758 for Johnson’s claim. United States
     v. Martha Johnson (E.D. North Carolina)

     Purdue Pharma Sentenced for
     Overbilling OWCP in Excess of
     $42 Million
     Purdue Frederick (Purdue Pharma), a
     privately held pharmaceutical company, was
     sentenced in July 2007 for fraudulently
     marketing a prescription pain medication,
     OxyContin, as less addictive, less subject to



34                                                                     Semiannual Report to the Congress
                                                                            April 1 – September 30, 2007
Departmental
Management
                                     Information Technology

     The Department’s information technology (IT) systems produce key economic
     indicators and facilitate the payment of billions of dollars in benefits and services
     and account for DOL-financed programs and operations. Maintaining the security
     of these systems is vital to the Department’s mission. The OIG has identified a
     number of IT issues requiring the Department’s attention, including preventing
     unauthorized access to systems, certification and accreditation of systems, and
     incident response capability. Adequate protection of personally identifiable
     information is an area of concern for the Department. Keeping up with new threats
     and IT developments, providing assurances that IT systems will function reliably,
     and safeguarding information assets will require the Department’s sustained
     effort.



     DOL Information Security Controls Not in Full Compliance with
     FISMA
     As required by the Federal Information Security Management Act (FISMA), the OIG conducted an
     independent audit to determine whether the Department and its component agencies were
                                                   meeting the Act’s requirements. We determined
                                                   that DOL security controls were not in full
                                                   compliance with FISMA.

                                                     Our testing of Department-wide security controls
                                                     covering 10 information systems across eight
                                                     component agencies revealed two significant
                                                     deficiencies, specifically, Department-wide access
                                                     controls, and one agency’s security program for a
                                                     major information system. These significant
                                                     deficiencies are attributed to both an ineffective
                                                     monitoring program and insufficient documentation
                                                     of procedures for implementing security controls
                                                     required under FISMA. As a result, DOL’s
                                                     effectiveness decreases in terms of protecting the
                                                     confidentiality and integrity of data, and the
                                                     availability of its IT environment.

     The deficiencies are summarized below.

         •     DOL has access-control weaknesses in both financial and nonfinancial information
               systems. We identified flaws in the design of controls for securing DOL-wide systems
               from unauthorized access in eight information systems at seven component agencies.
               While none of the component agencies had an individual significant deficiency, when the
               results of our testing were taken together, we concluded that a significant deficiency in



36                                                                      Semiannual Report to the Congress
                                                                             April 1 – September 30, 2007
                                   Information Technology

           access control exists at the departmental level. This significant deficiency was caused by
           the lack of processes, procedures, and defined roles and responsibilities for
           implementing access controls as required by FISMA and other statutory mandates. As a
           result, there is a substantial risk to the confidentiality, integrity, and availability of data
           contained on the information systems tested.

       •   VETS USERRA IMS lacks an effective information system security program. The
           Veterans’ Employment and Training Service (VETS) Uniformed Services Employment
           and Reemployment Rights Act Information Management System (USERRA IMS) lacks
           an effective information system security program. VETS did not have controls to meet the
           requirements of any of the National Institute of Standards and Technology Special
           Publication 800-53 control areas we tested. In addition, VETS had not assigned
           personnel responsibility for developing and implementing an information system security
           program for the USERRA IMS. As a result, the significant deficiency in the security
           control structure presented substantial risk to the personally identifiable information of the
           veterans that file formal USERRA claims with the Department. VETS requested the audit
           and took immediate corrective action.

   We also identified deficiencies in each of the six control areas tested: access controls;
   certification, accreditation, and security assessments; configuration management; contingency
   planning; incident response; and risk assessment. (Report Nos. 23-07-004-07-001 and 22-07-
   010-07-001)

   DOL Managers and Employees Need Records Management Training
   to Comply with Departmental Policy
   A December 1, 2006, departmental memorandum, “Department-wide Uniform E-mail and
   Electronic Document Back-up Retention Policy,” required the recycling or disposition of backup
   media after six months. During preliminary audit work related to an ongoing audit, we identified a
   potential risk to the implementation of this policy that needed to be addressed immediately.
   Therefore, we issued a management letter to bring this matter to the Department’s attention. The
   potential risk was that many DOL employees and managers were not aware of the requirements
   to print and file electronic records, such as e-mail and electronic documents that are Federal
   records, into their agency’s record-keeping system before deleting them.

   We determined that one of the key internal controls necessary to mitigate this risk was to provide
   training to all DOL employees on their records management responsibilities. We recommended
   that OASAM develop and implement a standard process for annual training of all DOL managers
   and employees in records management. In its response to the draft management letter, OASAM
   stated that the recommendation was premature and requested that the audit be conducted first in
   order for OASAM to form a fact-based assessment upon which to determine the appropriate next
   steps. We believe the recommendation is warranted because, until records management training
   is developed and implemented, the Department remains at risk that its employees are not aware
   of records management requirements. (Report No. 03-07-004-07-001)




Semiannual Report to the Congress                                                                            37
April 1 – September 30, 2007
                                      Competitive Sourcing

     Complaint Involving Preliminary Planning for DOL’s Competitive
     Sourcing of Finance and Accounting Positions Substantiated
     We performed an audit in response to complaints about the preliminary planning phase of the
     Department’s competitive sourcing study of its finance and accounting positions. The first
     complaint was that DOL did not comply with OMB requirements governing the preliminary
     planning process for the finance and accounting competition study.

     We substantiated the first complaint, finding that the Department did not comply with Federal
     requirements governing the preliminary planning process for the DOL Enterprise-Wide Finance
     and Accounting Services competition study. Specifically, the Office of the Chief Financial Officer
     (OCFO), the lead agency for conducting the competition study, did not use the inventory required
     by the Federal Activities Inventory Reform Act (FAIR Act) as the starting point in the initial phase
     of the preliminary planning process. As a result, the initial phase included inherently
     governmental positions that were being considered for competition, which Federal regulations do
     not allow.

     This occurred because the Department’s Office of Competitive Sourcing did not have a policy that
     specifically stated that the position classifications in the FAIR Act inventory must be used as the
     starting point for competitive studies. The OCFO and the Office of Competitive Sourcing have
     now excluded the inherently governmental positions from further evaluations before the next
     phase of the preliminary planning process.

     The second complaint was that, although a contractor’s report for the preliminary planning of the
     competitive sourcing was inaccurate, funds were awarded to that same contractor to rectify the
     inaccuracy. We found that the contractor did receive funds to perform work subsequent to the
     preliminary planning phase; however, the contractor did not use these funds to rectify the
     inaccuracies in its preliminary planning report as claimed in the second complaint. In fact, DOL
     officials performed the work to correct deficiencies in the contractor’s preliminary planning report.

     We recommended that the Department establish and implement a policy that requires agencies
     performing competitive sourcing competition studies to use the position classifications in the FAIR
     Act inventory as a starting point. In response to the draft report, the Deputy Assistant Secretary
     for Operations agreed with the recommendation and corrective action has been initiated. (Report
     No. 03-07-002-07-711)




38                                                                       Semiannual Report to the Congress
                                                                              April 1 – September 30, 2007
                                             Earmarks

   Information Compiled on FY 2005 Department of Labor Earmarks
   This project was conducted in response to a congressional request for information on: (1) the
   total number and cost of FY 2005 congressional earmarks awarded by the Department, (2) DOL’s
   oversight of earmark grants, and (3) the overall impact of earmarks on advancing the
   Department’s primary mission and goals. For purposes of this report, earmarks were defined as a
   provision of law, directive, or other item contained in a congressional joint explanatory statement
   or report accompanying a bill that identified a specific entity, program, project, or service.

   The Department reported 200 earmarks totaling $125.3 million during FY 2005, based on
   information we obtained through inquiry and documentation provided by DOL officials. Earmarks
   were appropriated to ETA, Bureau of International Labor Affairs (ILAB), MSHA, OSHA, and Office
   of Disability Employment Policy (ODEP).

   We found no instances in which oversight policies differed for earmarks compared to oversight for
   other awards. ETA, OSHA, and ILAB conducted oversight through desk reviews, risk
   assessments, and on-site monitoring. MSHA officials stated that monitoring was conducted
   primarily through written progress reports, while ODEP transferred responsibility for monitoring to
   the U.S. Department of Health and Human Services Centers for Medicare and Medicaid Services.

   The impact of earmarks on advancing the mission of ETA, OSHA, MSHA, and ODEP was
   minimal, as earmarks comprised between less than 1 percent and 2 percent of the FY 2005
   budgets of these four agencies. In contrast, ILAB’s earmarks had a major impact on advancing
   the agency’s mission: The $46.6 million in FY 2005 ILAB earmarks represented 50 percent of
   ILAB’s overall budget, and the $44.6 million specifically used for the elimination of international
   child labor represented 56 percent of ILAB’s budget for that program. (Report No. 02-07-205-50-
   598)




Semiannual Report to the Congress                                                                        39
April 1 – September 30, 2007
     Legislative
Recommendations
                              Legislative Recommendations

     The Inspector General Act requires the OIG to review existing or proposed
     legislation and regulations and to make recommendations in the Semiannual
     Report concerning their impact on the economy and efficiency of the
     Department’s programs and on the prevention of fraud and abuse.



     Allow DOL Access to Wage Records
     To reduce overpayments in employee benefit programs, including UI and FECA, the Department
     and the OIG need legislative authority to easily and expeditiously access state UI wage records,
     SSA wage records, and employment information from the National Directory of New Hires, which
     is maintained by the Department of Health and Human Services. The DOL and the SSA currently
     have a memorandum of understanding (MOU) in place that allows State Workforce Agencies to
     access Social Security data on individuals who apply for UI. The MOU is a good first step.

     In addition, a provision in the State Unemployment Tax Authority (SUTA) Dumping Prevention Act
     of 2004 (Public Law 108-295) enables state agencies responsible for the administration of
     unemployment compensation programs to obtain access to the National Directory of New Hires.
     By cross-matching UI claims against this new-hire data, states can better detect overpayments to
     UI claimants who have gone back to work but who continue to collect UI benefits. However, this
     law does not provide DOL or the OIG with access to the National Directory of New Hires. To
     make the New Hire data even more useful for this purpose, legislative action is needed requiring
     that employers report a new hire’s first day of earnings and provide a clear, consistent,
     nationwide definition for this date. Moreover, access to SSA and UI data would allow the
     Department to measure the long-term impact of employment and training services on job
     retention and earnings. Outcome information of this type for program participants is otherwise
     difficult to obtain.

     Amend Pension Protection Laws
     Legislative changes to ERISA and criminal penalties for ERISA violations would enhance the
     protection of assets in pension plans. To this end, the OIG recommends the following:

        •   Expand the authority of EBSA to correct substandard benefit plan audits and
            ensure that auditors with poor records do not perform additional plan audits.
            Changes should include providing EBSA with greater enforcement authority over
            registration, suspension, and debarment and the ability to levy civil penalties against
            employee benefit plan auditors. The ability to correct substandard audits and take action
            against auditors is important because benefit plan audits help protect participants and
            beneficiaries by ensuring the proper value of plan assets and computation of benefits.
        •   Repeal ERISA’s limited-scope audit exemption. This provision excludes pension plan
            assets invested in banks, savings and loans, insurance companies, and the like from
            audits of employee benefit plans. The limited scope prevents independent public
            accountants who are auditing pension plans from rendering an opinion on the plans’
            financial statements in accordance with professional auditing standards. These “no
            opinion” audits provide no substantive assurance of asset integrity to plan participants or
            to the Department.



42                                                                    Semiannual Report to the Congress
                                                                           April 1 – September 30, 2007
                             Legislative Recommendations

       •   Require direct reporting of ERISA violations to DOL. Under current law, a pension
           plan auditor who finds a potential ERISA violation is responsible for reporting it to the
           plan administrator, but not directly to DOL. To ensure that improprieties are addressed,
           we recommend that plan administrators or auditors be required to report potential ERISA
           violations directly to DOL. This would ensure the timely reporting of violations and would
           more actively involve accountants in safeguarding pension assets, providing a first line of
           defense against the abuse of workers’ pension plans.
       •   Strengthen criminal penalties in Title 18 of the United States Code. Three sections of
           Title 18 serve as the primary criminal enforcement tools for protecting pension plans
           covered by ERISA. Embezzlement or theft from employee pension and welfare plans is
           prohibited by Section 664, making false statements in documents required by ERISA is
           prohibited by Section 1027, and giving or accepting bribes related to the operation of
           ERISA-covered plans is outlawed by Section 1954. Sections 664 and 1027 subject
           violators to 5 years’ imprisonment, while Section 1954 calls for up to 3 years’
           imprisonment. We believe that raising the maximum penalties to 10 years for all three
           violations would serve as a greater deterrent and would further protect employee pension
           plans.

   Provide Authority to Ensure the Integrity of the Foreign Labor
   Certification Process
   If DOL is to have a meaningful role in the H-1B specialty occupations foreign labor certification
   process, it must have the statutory authority to ensure the integrity of that process, including the
   ability to verify the accuracy of information provided on labor condition applications. Currently,
   DOL is statutorily required to certify such applications unless it determines them to be “incomplete
   or obviously inaccurate.” Our concern with the Department’s limited ability to ensure the integrity
   of the certification process is heightened by the results of OIG analysis and investigations that
   show that the program is susceptible to significant fraud and abuse, particularly by employers and
   attorneys.

   The OIG recommends that DOL consider, in conjunction with USCIS, a legislative proposal that
   would require foreign nationals to have their eligibility determined by USCIS before the
   employer’s labor certification application is reviewed by DOL.

   Enhance the WIA Program Through Reauthorization
   The reauthorization of the WIA provides an opportunity to revise WIA programs to better achieve
   their goals. Based on our audit work, the OIG recommends the following:

       •   Improve state and local reporting of WIA obligations. A disagreement between ETA and
           the states about the level of funds available to states drew attention to the way WIA
           obligations and expenditures are reported. The OIG’s prior work in nine states and Puerto
           Rico showed that obligations provide a more useful measure for assessing states’ WIA
           funding status if obligations accurately reflect legally committed funds and are
           consistently reported.
       •   Modify WIA to encourage the participation of training providers. WIA participants use
           individual training accounts to obtain services from approved eligible training providers.
           However, performance reporting and eligibility requirements for training providers have
           made some potential providers unwilling to serve WIA participants.




Semiannual Report to the Congress                                                                         43
April 1 – September 30, 2007
                               Legislative Recommendations

        •   Support amendments to resolve uncertainty about the release of WIA participants’
            personally identifying information for WIA reporting purposes. Some training providers
            are hesitant to disclose participant data to states for fear of violating the Family Education
            Rights and Privacy Act.
        •   Strengthen incumbent worker guidance to states. Currently no Federal criteria define how
            long an employer must be in business or an employee must be employed to qualify as an
            incumbent worker, and no Federal definition of “eligible individual” exists for incumbent
            worker training. Consequently, a state could decide that any employer or employee can
            qualify for a WIA-funded incumbent worker program.

     Improve the Integrity of the FECA Program
     The OIG continues to support reforms to improve the integrity of the FECA program.
     Implementing the following changes would result in significant savings for the Federal
     government:

        •   Move claimants into a form of retirement after a certain age if they are still injured.
        •   Return a 3-day waiting period to the beginning of the 45-day continuation-of-pay process
            to require employees to use accrued sick leave or leave without pay before their benefits
            begin.
        •   Grant authority to DOL to directly and routinely access Social Security wage records in
            order to identify claimants defrauding the program.




44                                                                       Semiannual Report to the Congress
                                                                              April 1 – September 30, 2007
Appendix
                                                             Appendix

     Requirements Under the Inspector General Act of 1978

     Section 4(a)(2)—Review of Legislation and Regulation.................................................................42

     Section 5(a)(1)—Significant Problems, Abuses, and Deficiencies.............................................. ALL

     Section 5(a)(2)—Recommendations with Respect to Significant
     Problems, Abuses, and Deficiencies .......................................................................................... ALL

     Section 5(a)(3)—Prior Significant Recommendations on Which
     Corrective Action Has Not Been Completed ..................................................................................53

     Section 5(a)(4)—Matters Referred to Prosecutive Authorities .......................................................55

     Section 5(a)(5) and Section 6(b)(2)—Summary of Instances Where
     Information Was Refused ........................................................................................................ NONE

     Section 5(a)(6)—List of Audit Reports ...........................................................................................49

     Section 5(a)(7)—Summary of Significant Reports ..................................................................... ALL

     Section 5(a)(8)—Statistical Tables on Management Decisions on Questioned Costs ..................48

     Section 5(a)(9)—Statistical Tables on Management Decisions on
     Recommendations That Funds Be Put to Better Use ....................................................................47

     Section 5(a)(10)—Summary of Each Audit Report Over Six Months Old for
     Which No Management Decision Has Been Made ........................................................................53

     Section 5(a)(11)—Description and Explanation for Any Significant Revised
     Management Decision ............................................................................................................ NONE

     Section 5(a)(12)—Information on Any Significant Management Decisions with
     Which the Inspector General Disagrees.................................................................................. NONE




46                                                                                            Semiannual Report to the Congress
                                                                                                   April 1 – September 30, 2007
                                             Appendix

                                    Funds Put to Better Use
                                      Agreed to by DOL
                                                                        Number of     Dollar
                                                                          Reports   Value ($
                                                                                    millions)
    For which no management decision had been made as of the
    commencement of the reporting period                                       0         0.0
    Issued during the reporting period                                         2         1.2
            Subtotal                                                           2         1.2
    For which management decision was made during the reporting
    period:

      •   Dollar value of recommendations that were agreed to by
          management                                                                     0.0
      •   Dollar value of recommendations that were not agreed to by
          management                                                                     0.0
      For which no management decision had been made as of the
      end of the reporting period                                              2         1.2



                                    Funds Put to Better Use
                                     Implemented by DOL
    For which final action had not been taken as of the
    commencement of the reporting period                                       5      438.5
    For which management or appeal decisions were made during the
    reporting period                                                           0         0.0
            Subtotal                                                           5      438.5
    For which final action was taken during the reporting period:

      •   Dollar value of recommendations that were actually
          completed                                                                      0.0
      •   Dollar value of recommendations that management has
          subsequently concluded should not or could not be
          implemented or completed
                                                                                        0.0
    For which no final action had been taken by the end of the period          5      438.5
    For which final action had not been taken as of the
    commencement of the reporting period                                       5      438.5




Semiannual Report to the Congress                                                               47
April 1 – September 30, 2007
                                                 Appendix


                                           Questioned Costs
                                                                                 Number of         Disallowed
                                                                                   Reports              Costs
                                                                                                   ($ millions)
     For which no management decision had been made as of the
     commencement of the reporting period (as adjusted)                                   44             115.7
     Issued during the reporting period                                                   14              22.4
             Subtotal                                                                     58             138.1
     For which a management decision was made during the reporting
     period:

       •   Dollar value of disallowed costs                                                               33.3

       •   Dollar value of costs not disallowed                                                           57.5

     For which no management decision had been made as of the end                         28              47.3
     of the reporting period
     For which no management decision had been made within six                            11              21.7
     months of issuance



                                            Disallowed Costs
                                                                                 Number of         Disallowed
                                                                                   Reports              Costs
                                                                                                   ($ millions)
     For which final action had not been taken as of the
     commencement of the reporting period (as adjusted)*                                  76              30.9
     For which management or appeal decisions were made during the
     reporting period                                                                     18              33.3
           Subtotal                                                                       94              64.2
     For which final action was taken during the reporting period:

       •   Dollar value of disallowed costs that were recovered                                           28.2

       •   Dollar value of disallowed costs that were written off by                                        0.2
           management

       •   Dollar value of disallowed costs that entered appeal status                                      0.1


            *These figures are provided by DOL agencies and are unaudited. Does not include $2.5 million of
            disallowed costs that are under appeal. Partial recovery/write-offs are reported in the period in
            which they occur. Therefore, many audit reports will remain open awaiting final recoveries/write-offs
            to be recorded.




48                                                                           Semiannual Report to the Congress
                                                                                  April 1 – September 30, 2007
                                                           Appendix

                                   Final Audit and Attestation Reports Issued

                    Program Name                            Date       Report         # of Nonmonetary                 Other
                                                                                                       Questioned
                    Name of Report                         Issued      Number         Recommendations                Monetary
                                                                                                         Costs
                                                                                                                      Impact
                                                                                                          ($)
                                                                                                                        ($)
                                                  Employment and Training Programs
Office of Disability Employment Policy
Single Audit: Way Station, Inc.                           07/19/07 21-07-538-01-080           4           158,758

Job Corps Program
 Performance Audit of the Laredo Job Corps Center         09/28/07 09-07-002-01-370           3                            96,962
 Grafton Job Corps Center: Allegations That Student
                                                          09/28/07 09-07-004-01-370           4                            56,824
 Attendance and Training Data Were Overstated
 Single Audit: Future Entrepreneurs and Workers
                                                          08/15/07 21-07-539-01-370          35
Training and Administration
 Performance Audit of the Cleveland Job Corps Center      09/28/07 26-07-003-01-370           5           344,175

Job Training Partnership Act
 Florida Continued to Misuse JTPA Funds for Its
 Performance Based Incentive Funding Program              09/28/07 04-07-009-03-340                      6,176,454
 During the Period 6/10/98 – 6/30/00

Workforce Investment Act
Local Workforce Investment Area (LWIA)
                                                          09/28/07 02-07-204-03-390
Executive Compensation
Complaint Involving United Way of Central Alabama’s
                                                          09/28/07 04-07-003-03-390          4
Birmingham Works for Youth Program
Audit of the Mississippi National Emergency Grant         09/28/07 04-07-006-03-390
Audit of the Texas National Emergency Grant               09/28/07 04-07-007-03-390          5
Audit of the Louisiana National Emergency Grant           09/28/07 04-07-008-03-390          5
Employment and Training Administration’s Contract
with TCE Digital Solutions Violated Provisions of         09/28/07 05-07-003-03-390          3
the Small Business Act Section 8(a)
Complaint against Southwest Texas Junior College
Community-Based Job Training Grant Was                    09/27/07 06-07-008-03-390
Unsubstantiated
Single Audit: State of Maryland – Fiscal Year 2005        04/19/07 21-07-526-03-390          5
Single Audit: State of Delaware                           04/30/07 21-07-529-03-390          4           2,213,062
Single Audit: State of Utah                               08/16/07 21-07-540-03-390          8              22,932

Veterans Employment and Training Service
Single Audit: Clackamas County, Oregon                    05/01/07 21-07-530-02-001          1              1,100
Single Audit: State of Florida                            05/07/07 21-07-533-02-001          1              4,605
Single Audit: Way Station, Inc. - Fiscal Year 2005        07/17/07 21-07-537-02-001          6             53,590
Texas Workforce Commission Jobs for Veterans
                                                          09/28/07 06-07-006-02-201                        17,905
State Grant
Goal Totals                                                               20                 93          8,992,581        153,786
                                                       Worker Benefit Programs
Longshore and Harbor Workers' Compensation
Longshore and Harbor Workers’ Compensation Act
Special Fund Financial Statements and                     05/07/07 22-07-005-04-432
Independent Auditors’ Report
District of Columbia Workmen’s’ Compensation
Act Special Fund Financial Statements and                 05/07/07 22-07-006-04-432
Independent Auditors’ Report




          Semiannual Report to the Congress                                                                          49
          April 1 – September 30, 2007
                                                          Appendix

                                   Final Audit and Attestation Reports Issued

                    Program Name                          Date        Report         # of Nonmonetary                 Other
                                                                                                      Questioned
                    Name of Report                       Issued       Number         Recommendations                Monetary
                                                                                                        Costs
                                                                                                                     Impact
                                                                                                         ($)
                                                                                                                       ($)
Federal Employees’ Compensation Act
 Mechanisms Used to Identify Changes in Eligibility
 Are Inadequate at the FECA District Office in            09/29/07 04-07-004-04-431          4
 Jacksonville, Florida
Service Auditor’s Report on the Integrated Federal
Employees’ Compensation System and Service
                                                          09/25/07 22-07-009-04-431
Auditors’ Report on the Medical Bill Processing
System for the Period 10/1/06 to 3/31/07
Goal Totals                                                                4                 4
                                             Worker Safety, Health, and Workplace Rights
Women’s Bureau
Single Audit: Women Work! The National Network
                                                          09/21/07 21-07-543-01-020          1
for Women’s Employment

Mine Safety and Health
Mine Safety and Health Administration’s Office of Coal
Mine Safety and Health Needs to Strengthen Its           08/24/07 05-07-002-06-001          14
Accountability Program

Occupational Safety and Health
Consultation Program Does Not Ensure Worker Safety
When Serious Hazards Are Not Corrected as                09/04/07 05-07-001-10-105           4
Agreed to by Employers
Goal Totals                                                               3                 19
                                                     Departmental Management
ETA Management
Single Audit: State of New Jersey – Fiscal Year 2005     04/05/07 21-07-521-03-001           2              7,595
Single Audit: South Carolina Employment Security
                                                         04/16/07 21-07-524-03-001          10
Commission
Single Audit: State of West Virginia                     04/16/07 21-07-525-03-001          15         12,374,024
Single Audit: State of Vermont                           05/10/07 21-07-527-03-001           3
Single Audit: State of Maryland – Fiscal Year 2006       04/19/07 21-07-528-03-001           4
Single Audit: State of Florida                           05/07/07 21-07-532-03-001          18            345,894
Single Audit: Workforce Investment Board of
                                                         06/20/07 21-07-534-03-001           1
Herkimer, Madison and Oneida Counties, Inc.
Single Audit: Workforce Alliance, Inc.                   06/29/07 21-07-535-03-001           3
Single Audit: City and County of Denver, Colorado        07/17/07 21-07-536-03-001           2
Single Audit: Institute for GIS Studies, Inc.            08/31/07 21-07-541-03-001           4
Single Audit: State of New Jersey – Fiscal Year 2006     09/20/07 21-07-542-03-001                        331,078
Single Audit: State of Arizona                           09/28/07 21-07-544-03-001           7             17,079

Office of the Assistant Secretary for
Administration and Management
Fiscal Year 2006 Findings and Recommendations
Related to General, Application, and Security Controls
                                                         09/12/07 22-07-010-07-001          17
for Selected DOL Information Technology Financial
Systems
Department of Labor Needs to Remedy Significant
Security Control Deficiencies in Access Controls and
in the Veterans’ Employment and Training Service,
                                                         09/28/07 23-07-004-07-001           2
Uniformed Services Employment and Reemployment
Rights Act Information Management System Security
Program




         50                                                                          Semiannual Report to the Congress
                                                                                          April 1 – September 30, 2007
                                                            Appendix

                                   Final Audit and Attestation Reports Issued

                    Program Name                            Date         Report         # of Nonmonetary                        Other
                                                                                                         Questioned
                    Name of Report                         Issued        Number         Recommendations                       Monetary
                                                                                                           Costs
                                                                                                                               Impact
                                                                                                            ($)
                                                                                                                                 ($)
Complaint Involving the Department of Labor’s
Competitive Sourcing of Finance and Accounting             09/28/07 03-07-002-07-711             1
Positions

Office of the Chief Financial Officer
Fiscal Year 2006 Consolidated Financial Statements
                                                           05/16/07 22-07-001-13-001             79
Findings and Recommendations

Multi-Agency Programs
Single Audit: Way Station, Inc. – Fiscal Year 2006         04/30/07 21-07-531-50-598             8
Goal Totals                                                                17                   176           13,075,670


Final Audit and Attestation Report Totals                                    44                 292           22,068,251       153,786


            NOTE:      All single audit reports shown in the above schedule represent audits of States, local governments
                       and nonprofit organizations conducted, in accordance with generally accepted government auditing
                       standards, by independent public accounting firms and/or state and local government auditors
                       under the Single Audit Act of 1984 and the Single Audit Act Amendments of 1996. Upon receipt of
                       the Single Audit report, OIG reviews the report to identify findings and recommendations directed at
                       DOL programs. OIG then issues a report to the funding agency that summarizes the DOL findings
                       and recommendations, and requests that the funding agency take resolution action on the
                       recommendations within 6 months of the date of the OIG report.




         Semiannual Report to the Congress                                                                                    51
         April 1 – September 30, 2007
                                                        Appendix

                                                Other Reports Issued

                   Program Name                          Date        Report          # of Nonmonetary                 Other
                                                                                                      Questioned
                   Name of Report                       Issued       Number          Recommendations                Monetary
                                                                                                        Costs
                                                                                                                     Impact
                                                                                                         ($)
                                                                                                                       ($)
                                              Employment and Training Programs
Veterans Employment and Training Services
Status of Recommendations of Veterans’
Employment and Training Services Audit Report:
                                                     07/27/07 23-07-003-02-001
The GISRA Audit of the USERRA Information
Management System

Bureau of Labor Statistics
Status of Recommendations of the Audit Report:
                                                       09/21/07 23-07-005-11-001
FISMA Audit of the BLS’ Producer Price Index System
Goal Totals                                                             2

                                                      Worker Benefit Programs
Unemployment Insurance Program
Insufficient Controls over Hurricane-issued Debit Cards
                                                         09/28/07 06-07-002-03-315           3          354,070          839,309
Created Opportunities for Fraud
The Louisiana Department of Labor Paid $51 Million
in Hurricane-Related Unemployment Benefits               09/28/07 06-07-003-03-315           2                     51,180,655
on Questionable Claims
Mississippi's Suspension of Controls Resulted
in the Payment of at Least $25 Million in
                                                         09/28/07 06-07-004-03-315           2                     25,100,000
Disaster Unemployment Assistance to Claimants
Whose Eligibility Was Unsubstantiated
Louisiana's Suspension of Controls Resulted
in the Payment of at Least $62.1 Million in
                                                         09/28/07 06-07-005-03-315           1                     62,100,000
Disaster Unemployment Assistance to Claimants
Whose Eligibility Was Unsubstantiated
Federal Employees’ Compensation Act
U. S. Postal Service's Schedule Award Program
                                                         09/28/07 03-07-005-04-431           1
Audit Recommendation
Goal Totals                                                               5                  9          354,070    139,219,964

                                            Worker Safety, Health, and Workplace Rights
Status of Recommendations of Audit Report:
GISRA Evaluation and Security Test and Evaluation -      09/27/07 23-07-006-10-001
Occupational and Safety and Health Administration
Status of Recommendations of Audit Report:
Occupational Safety and Health Administration Needs
to Remedy Significant Security Control Deficiencies      09/2707 23-07-007-10-001
for the Integrated Management Information System
Redesign Whistleblower Web Application
Goal Totals                                                               2

                                                  Departmental Management
OASAM Management
DOL Records Management Program                         09/24/07 03-07-004-07-001             1

Multi-Agency Programs
Fiscal Year 2005 Department of Labor Earmark Grants    09/25/07 02-07-205-50-598
Goal Totals                                                             2                    1
Other Report Totals                                                    11                   10          354,070    139,219,964




         52                                                                          Semiannual Report to the Congress
                                                                                          April 1 – September 30, 2007
                                                          Appendix

                              Unresolved Audit Reports Over Six Months Old

  Agency/       Date                                                                              # of         Questioned
                                         Name of Audit                    Report Number
  Program      Issued                                                                        Recommendations     Costs
                                    Nonmonetary Recommendations and Questioned Costs
                         OIG Conducting Followup Work During FY 2007 Financial Statement Audits
CFO/Admin    02/27/98 FY 1997 Consolidated Financial Statements         12-98-002-13-001       1
CFO/Admin     03/31/04 OCFO General Application and Security Controls 23-04-004-13-001         3
           Final Management Decision Issued by Agency Did Not Resolve; OIG Negotiating with Program Agency
                       Performance Audit of Health Coverage Tax         02-05-204-03-330
ETA/TAA       09/30/05                                                                         2
                       Credit (HCTC) Bridge and Gap Programs
                       Award and Management of Contracts for
OASAM/DIRM 03/31/05 Encryption Software Were Significantly Flawed      05-05-005-07-720        1

                       MSHA Procurements Showed a Pattern of
MSHA/Admin 10/29/04 Disregard for Federal and Department of Labor       25-05-001-06-001        1
                       Acquisition Rules and Requirements
                       Coal Mine Hazardous Condition Complaint
MSHA/Admin 09/29/06 Process Should Be Strengthened                      05-06-006-06-001        2

                       Coal Mine Safety and Health Accountability
MSHA/Admin 09/29/06 Program                                             05-06-007-06-001        1

                       Audit of Cincinnati Job Corps Center ‘s Student
OSEC/JCC      03/30/07                                                  03-07-003-01-370        3              208,121
                       Leave and Unexcused Absences
                       Performance Audit of Oconaluftee Job Corps
OSEC/JCC      3/30/07                                                   26-07-001-01-370        7              124,608
                       Center
           Final Management Decision Not Yet Issued–Agency Awaiting Response from Internal Revenue Service
EBSA          03/29/02 Improved Oversight of Cash Balance Plan Lump     09-02-001-12-121       2
                       Sum Distributions Is Needed
        Final Management Decision Not Issued – Agency Awaiting Response From Office of Management and Budget
                        MSHA Needs To Improve Controls Over                                    3
MSHA/Admin 12/26/06                                                    22-07-008-06-001
                        Performance Data
                             Final Management Decision Not Issued by Agency by Close of Period
VETS/Admin 03/24/05 Single Audit: State of Florida                      21-05-523-02-001        2              245,226
OSEC/JCC      08/16/06 Single Audit: YWCA of Greater Los Angeles        21-06-543-01-370       12
OSEC/JCC      11/15/06 Single Audit: Future Entrepreneurs and Workers   21-07-501-01-370        1               13,287
                       Questionable Eligibility of College Students in
ETA/WIA       09/28/06 Mississippi’s National Emergency Grant Training  04-06-008-03-390        3
                       Program
                       St. Charles Department of Workforce
ETA/WIA       09/28/06                                                  05-06-001-03-390        3            4,110,061
                       Development
ETA/DINAP     03/15/07 Single Audit: Seminole Nation of Indians         21-07-523-03-355        3              135,377
                       Administrative Title V Funds by the National
ETA/DOWP      03/30/07                                                  21-07-002-03-360        5              130,414
                       Caucus and Center on Black Aged, Inc.
                                      Agency Has Requested Additional Time to Resolve

                         Single Audit: Commonwealth of Northern
ETA/WIA       08/31/06                                                    21-06-559-03-390          9                  528,046
                         Marianas
                         Community Preservation and Development
ETA/FLC       03/30/07   Corporation’s H-1B Technical Skills Training     03-07-001-03-321          3                  870,821
                         Grant
                         Kingston-Newburgh Enterprise Corporation
ETA/WIA       03/12/07                                                    02-07-201-03-390          1                 1,201,110
                         Earmark Grant
ETA/WIA       02/14/07   Audit of San Diego Workforce Partnership, Inc.   09-07-001-03-390         17             14,192,002
ETA/WIA       03/14/07   Single Audit: San Diego Workforce Partnership    21-07-522-03-390         6




          Semiannual Report to the Congress                                                                      53
          April 1 – September 30, 2007
                                                         Appendix

                              Unresolved Audit Reports Over Six Months Old

   Agency/       Date                                                                              # of         Questioned
                                         Name of Audit                    Report Number
   Program      Issued                                                                        Recommendations     Costs
                                                                                                                             0
                                                          Under Appeal
                        Westchester-Putnam County Consortium for
ETA/WIA        09/29/06 Workers Education and Training, Inc. Earmark      02-06-204-03-390           2                       0
                        Grant
Total Nonmonetary Recommendations, Questioned Costs                                                 93             21,759,073
                                                         Cost Efficiencies
                          Performance Audit of Oconaluftee Job Corps
OSEC/JCC         03/30/07                                                  26-07-001-01-370          1                190,367
                          Center
ETA/WIA          02/14/07 Audit of San Diego Workforce Partnership, Inc.   09-07-001-03-390          1                961,490
Total Cost Efficiencies                                                                              2              1,151,857
Total Audit Exceptions and Cost Efficiencies                                                        95             22,910,930




          54                                                                      Semiannual Report to the Congress
                                                                                       April 1 – September 30, 2007
                                          Appendix

                                    Investigative Statistics
                                                        Division Totals      Totals
    Cases Opened:                                                             191
       Program Fraud                                           146
       Labor Racketeering                                       45

    Cases Closed:                                                             227
       Program Fraud                                           163
       Labor Racketeering                                       64

    Cases Referred for Prosecution:                                           148
       Program Fraud                                           105
       Labor Racketeering                                       43

    Cases Referred for Administrative/Civil Action:                           94
       Program Fraud                                           87
       Labor Racketeering                                      7

    Indictments:                                                              281
       Program Fraud                                           188
       Labor Racketeering                                       93

    Convictions:                                                              198
      Program Fraud                                            117
      Labor Racketeering                                        81

    Debarments:                                                               20
       Program Fraud                                            5
       Labor Racketeering                                      15

    Recoveries, Cost Efficiencies, Restitutions,
    Fines/ Penalties, Forfeitures, and Civil                              $363,327,162
    Monetary Actions:
       Program Fraud                                      $325,631,023
       Labor Racketeering                                  $37,696,139




Semiannual Report to the Congress                                                        55
April 1 – September 30, 2007
                                            Appendix

                                   Investigative Statistics

     Recoveries:
     (The dollar amount/value of an agency’s action to recover or
     reprogram funds or to make other adjustments in response to
     OIG investigations)
                                                                                  $2,631,454
     Cost-Efficiencies:
     (The one-time or per annum dollar amount/value of
     management’s commitment, in response to OIG investigations,
     to utilize the government’s resources more efficiently)
                                                                                 $10,749,354
     Restitutions:
     (The dollar amount/value of restitutions resulting from OIG
     criminal investigations)

                                                                                $344,719,022
     Fines/Penalties:
     (The dollar amount/value of fines, assessments, seizures,
     investigative/court costs, and other penalties resulting from OIG
     criminal investigations)
                                                                                  $1,805,359
     Civil Monetary Actions:
     (The dollar amount/value of forfeitures, settlements, damages,
     judgments, court costs, or other penalties resulting from OIG
     civil investigations)
                                                                                  $3,421,973


     Total                                                                      $363,327,162




56                                                                 Semiannual Report to the Congress
                                                                        April 1 – September 30, 2007
                                                            Appendix

                                                          OIG Hotline

   The OIG Hotline provides a communication link between the OIG and persons
   who want to report alleged violations of law, rules, or regulations;
   mismanagement; waste of funds; abuse of authority; or danger to public health
   and safety. During this reporting period, the OIG Hotline received 2,062 contacts.
   Of these, 1,824 were referred for further review and/or action.

   Contacts Received (by source):
   Complaints from Individuals or Non-Governmental Organizations ............................ 1,987
   Complaints/Inquiries from Congress ............................................................................... 15
   Referrals from GAO ........................................................................................................ 10
   Complaints from other DOL Agencies............................................................................. 12
   Incident reports from DOL Agencies and Grantees .......................................................... 3
   Referrals from OIG Components ...................................................................................... 2
   Complaints from other Governmental Agencies (Non-DOL)........................................... 11
   Unknown ......................................................................................................................... 22
   Total........................................................................................................................... 2,062

   Disposition of Complaints:
   Referred to OIG Components for Further Review and/or Action .................................... 85
   Referred to DOL Program Management for Further Review and/or Action .................. 654
   Referred to Non-DOL Agencies/Organizations ........................................................... 1085
   No Referral Required/Informational Contact ................................................................. 238
   Total........................................................................................................................... 2,062




Semiannual Report to the Congress                                                                                                           57
April 1 – September 30, 2007
